<html>
<title> - EARLY EDUCATION: FROM SCIENCE TO PRACTICE</title>
<body><pre>[Senate Hearing 107-285]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-285
 
               EARLY EDUCATION: FROM SCIENCE TO PRACTICE
=======================================================================



                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON


   EXAMINING EARLY EDUCATION ISSUES, FOCUSING ON QUALITY EDUCATIONAL 
   PROGRAMS, PARENT INVOLVEMENT IN EARLY CHILDHOOD DEVELOPMENT, AND 
        SEPARATION OF EDUCATION FOR CHILDREN WITH SPECIAL NEEDS

                               __________

                           FEBRUARY 12, 2002
                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




                     U.S. GOVERNMENT PRINTING OFFICE
77-768                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel

             Townsend Lange McNitt, Minority Staff Director

                                 ______

                                  (ii)

  






                            C O N T E N T S

                               __________

                               STATEMENTS

                           February 12, 2002

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio, opening 
  statement......................................................     4
Bond, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, opening statement.................................     7
Shonkoff, Jack P., M.D., Dean, Heller School, Brandeis 
  University, Waltham, MA; Edward Zigler, Sterling Professor of 
  Psychology, Yale University, New Haven, CT; and Dorothy S. 
  Strickland, State of New Jersey Professor of Reading, Graduate 
  School of Education, Rutgers, the State University of New 
  Jersey, New Brunswick, NJ......................................     8
    Prepared statements of:......................................
        Dr. Shonkoff.............................................    10
        Mr. Zigler...............................................    15
        Ms. Strickland...........................................    19
Reiner, Rob, Founder, I Am Your Child Foundation, Hollywood, CA; 
  Elisabeth Schaefer, Administrator, Early Learning Services, 
  Massachusetts Department of Education, Malden, MA; Susan D. 
  Russell, Executive Director, Child Care Services, University of 
  North Carolina Chapel Hill, Raleigh, NC; and Sharon Rhodes, 
  Director, Program Development and Evaluation, Parents as 
  Teachers National Center, St. Louis, MO........................    39
    Prepared statements of:......................................
        Mr. Reiner...............................................    44
        Ms. Schaefer.............................................    49
        Ms. Russell..............................................    57
        Ms. Rhodes...............................................    60

                          ADDITIONAL MATERIAL

Articles, publications, letters, etc.:
    Child Care Services Association..............................    72

                                 (iii)

  


               EARLY EDUCATION: FROM SCIENCE TO PRACTICE

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy (chairman of the committee) presiding.
    Present: Senators Kennedy, Dodd, Jeffords, Murray, Gregg, 
Bond, and DeWine.

                  Opening Statement of Senator Kennedy

    The Chairman. The committee will come to order.
    It is just after 9:30, and I know that my colleagues are on 
their way, but we do have a series of votes, unfortunately, at 
10:30, three votes, which I regret, and I apologize to our 
witnesses. People ask about the changes in the U.S. Senate, and 
this is one of the more unfortunate aspects of it, because it 
interrupts the flow of the hearing and I think presents 
additional interference with our guests and witnesses, many of 
whom have come a long way to share their experience with us on 
a matter of enormous importance.
    So I apologize to everyone.
    We have as well this morning a variety of very urgent 
hearings, with the budget hearing, the Enron hearings--I do not 
think any of the other hearings are as important as what is 
happening here, quite frankly. But nonetheless, a number of our 
colleagues are on those committees.
    This is a subject matter which is of enormous interest to 
all the members of our committee on both sides of the aisle. I 
would mention my good friend, Senator Dodd, who has done an 
outstanding job in the area of children and has chaired the 
Children's Caucus; and Paul Wellstone, who has been tireless on 
this issue in working with us; and many of our colleagues on 
both sides. Senator Gregg has been very strongly interested in 
it; Senator Bond as Governor was active and involved in this 
cause. You can just go across the spectrum.
    Our first panel will bring us the best in terms of the 
science, what we know. It is now incontrovertible about what we 
know about the child and his or her ability to make progress.
    Then, we will hear from some of those who have been most 
active and involved in developing programs.
    I think we have some of the best that we could have before 
us today. There are many others whose advice and counsel we 
will seek. But we know that in 1989, the Nation made a 
commitment about children being ready to learn when they go to 
school, and we have the opportunity to make a difference, and 
we are interested in how we can best achieve that.
    I would also like to mention that Senator Harkin wanted to 
attend today's hearing on this very important issue, but 
unfortunately could not because of his responsibilities as 
manager of the farm bill which is currently being considered on 
the Senate floor.
    I will put my full statement in the record as well as the 
statement of Senator Enzi and turn to Senator DeWine for any 
brief comments he may wish to make.
    [The prepared statement of Senator Kennedy follows:]

                 Prepared Statement of Senator Kennedy

    Today's hearing continues the dialogue on what we need to 
do to ensure that our youngest children reach school ready to 
learn. We have before us today, the nation's leading experts in 
the science of early childhood development, as well as state 
and national leaders who have successfully used that science to 
establish successful state and local programs for children from 
birth to age five.
    Last month we, were honored to have the First Lady appear 
before this committee to stress the importance of nurturing 
children's learning and skills during the critical years 
between the crib and the classroom. Last week, President Bush 
announced that early education is one of his top domestic 
agenda items. And it's a top priority for this Committee, too.
    In 1989, at the National Education Summit, then President 
George Bush and the nation's governors established eight 
national goals to reform the nation's education system. The 
first goal was that by the year 2000, all children should start 
school ready to learn.
    It is now thirteen years later and we still have a long way 
to go to meet this goal for our children. Our youngest children 
still have many unmet needs and our nation's early education 
system remains largely fragmented, underfunded and poorly 
staffed.
    Today, even more than in 1989, the science is crystal 
clear. Over the past decade, experts from many disciplines and 
perspectives have echoed the same conclusion--that what we do 
for our children in their earliest formative years, sets the 
foundation in school and in life.
    With this scientific consensus, Congress has a new 
opportunity--and a growing responsibility--to improve the 
quality of education for the nation's youngest children.
    There is much to be done. As elementary and secondary 
education has been a priority over the last two years, we must 
now devote the same energy to early education. We were 
successful in working in a bipartisan manner to achieve 
significant reforms in the Elementary and Secondary Education 
Act. In the same bipartisan spirit, we must move on to the next 
frontier in education--preschool.
    It is time to close the gap between what we know and what 
we do. The science of early development, especially brain 
development, has advanced significantly. We know that human 
development is on a course set long before birth. We also know 
that the environments that children are in influence that 
course. Today we will examine the research on early childhood 
development and hear from experts in the science of early 
childhood development. Then we will examine state initiatives 
that bridge the gap between what the science tells us and what 
we do to ensure our children arrive at our schools ready to 
learn.
    Some states and communities have begun to address this 
challenge. They have formed strong partnerships at the state 
and local level to weave the current patchwork of early 
education and care programs into a high quality, unified system 
of early education services for all children in America, 
especially for those at greatest risk of academic failure.
    We must do more to improve the existing federal efforts and 
to improve the quality of these programs. We must coordinate 
the current array of federal programs more effectively, from 
Early Head Start, to Head Start, to the Child Care and 
Development Block Grant to Title I.
    To improve the chances for children to succeed in school, 
we must also focus our investments on developing well-trained, 
highly skilled teachers who have the knowledge and financial 
resources to create stimulating care environments that help all 
children to develop and prepare for school.
    This could be the most important issue before this 
Committee this year. And we look forward to hearing from our 
distinguished witnesses.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Thank you Mr. Chairman. I appreciate this opportunity to 
discuss the vital issue of early childhood education. I would 
like to thank all of our panelists for their testimony before 
the Committee.
    We all agree that making sure our nation's children are 
ready to learn when they reach the schoolhouse door is a top 
priority. In fact, research indicates that the early years are 
crucial for brain development, and that there is a direct 
correlation between the amount of stimulation young children 
receive in their early years and their success in learning and 
intellectual growth as they mature. I was surprised to 
discover, however, that there is still a great deal of 
disagreement between experts in the field about the best way, 
or time, to start helping young children learn.
    In light of this fact, I would encourage this committee to 
work to develop solutions that are flexible enough to take into 
account differing ideas about what makes a quality early 
education program, as well as the unique needs of small, 
predominantly rural states like Wyoming. As we continue to 
examine the issue of early childhood education we must keep in 
mind that it is the responsibility of the individual states to 
set the standards that will help to ensure that children enter 
school ready to read and learn. In fact, the Wyoming Department 
of Education recently formed the Early Childhood Standards Task 
Force to create early learning standards for school readiness 
that will assist parents, early childhood educators, and other 
child care providers in designing learning experiences and 
curriculum to help young children prepare for success in 
school. As federal legislators we must clear away any obstacles 
and unnecessary red tape that would slow or stop the 
implementation of these standards that so many people in 
Wyoming are working so hard to develop.
    I would also like to take this opportunity to commend First 
Lady Laura Bush for her commitment to the issue of early 
childhood education. The success of the White House Summit on 
Early Childhood Cognitive Development, which brought together 
hundreds of educators (including Wyoming's Superintendent of 
Public Instruction, Judy Catchpole), researchers, librarians, 
business leaders and federal officials to help us better 
understand the issues surrounding early childhood learning, is 
a credit to this Administration. Two important early education 
initiatives, which will directly impact the work of this 
Committee, were announced at this summit. First, the formation 
of a joint task force, headed by the Departments of Education 
and Health and Human Services, that will work to determine the 
best ways to ensure young children enter school ready to learn. 
This goal will be accomplished by studying research-based 
strategies on reading and math readiness and recommending how 
they can be widely implemented in federally funded preschool 
programs. Second, Secretary of Education, Rod Paige, announced 
a plan to overhaul the Head Start program, which currently 
serves 880,000 poor children. This proposal, which I 
wholeheartedly support, will shift the focus of the federal 
government's major preschool effort to emphasize literacy and 
pre-reading skills for the first time. I am confident that this 
shift in the focus of the Head Start program will bring our 
nation's children closer to reaching President Bush's goal of 
ensuring that all children can read before the end of the third 
grade.
    Mr. Chairman, 1 look forward to hearing the testimony of 
all of our panelists. I know that their expertise in the field 
of early childhood education will bring us closer to 
understanding what our states can do to ensure that no child is 
left behind, just as President Bush requested.

                  Opening Statement of Senator DeWine

    Senator DeWine. Mr. Chairman, I will make it very brief and 
ask that my statement be made a part of the record and just 
thank you for holding this hearing on something that we all 
know is so very, very important in early childhood development.
    The Chairman. Thank you.
    [The prepared statement of Senator DeWine follows:]

                  Prepared Statement of Senator DeWine

    Thank you Chairman Kennedy and Ranking Member Gregg for 
holding this important hearing today. All of us here know that 
our children are the most vulnerable members of our population 
and yet our most valuable resources. As the parents of eight 
and grandparents of six, soon to be seven, my wife Fran and I 
know the responsibility, time, and dedication it takes to 
ensure that children, especially very young children, receive 
proper care.
    The first five years of a child's life are a time of 
momentous change. Research shows that a child's brain size 
doubles between birth and age three. I remember my own children 
during this time, and it seemed like every day they were 
learning and doing something for the first time--walking, 
crawling, or learning another new word.
    Kids are like sponges, particularly at this early stage of 
life. That's why education is such an important part of our 
children's lives, not just when they reach kindergarten, but 
really from the day they are born.
    Early learning programs play a pivotal role in preparing 
our children for kindergarten and beyond. First Lady Laura Bush 
has taken an important leadership role in this issue with her 
``Ready to Read, Ready to Learn'' initiative, which has helped 
put early learning into the national spotlight. For example, 
when she testified before this Committee just a few short weeks 
ago, she discussed a marked discrepancy that exists in our 
country. She explained that when children enter their 
kindergarten classrooms on the first day of school, they are 
not all starting from the same point. In other words, some 
children are much more advanced than others.
    Research shows that children who attend quality early 
childcare programs when they were three or four years-old score 
better on math, language, and social skills tests in early 
elementary school than children who attended poor quality 
childcare programs. In short, children in early learning 
programs with high quality teachers--teachers with an 
associate's degree or a bachelor's degree--do substantially 
better.
    Although states have dramatically increased spending on 
pre-primary initiatives, this funding is only sufficient to 
provide services to a small number of eligible children.
    Right now, these programs are reaching children mostly 
three or four years of age. we also need to reach those 
children younger than three years-old--those children whose 
brains are in a period of rapid growth which significantly 
impacts language development and gross motor skills.
    When we examine the number and recent expansion of pre-
primary education programs, it becomes difficult to 
differentiate between early education and child care settings 
because so often, they are intertwined. With 75% of children 
less than five years of age in some kind of regular child care 
arrangement, we need to determine where to target early 
learning initiatives.
    I am eager to hear from the panel as to how they view the 
relationship between childcare and early learning, especially 
in respect to the science behind the practice. These are all 
very complex issues. We need to find a balance between 
establishing quality pre-primary education programs and 
ensuring that we reach as many children as possible.
    Again, I thank Chairman Kennedy for holding this hearing, 
and I look forward to working with my colleagues on this vital 
issue.
    The Chairman. It is a privilege to welcome our first 
witness, Dr. Jack Shonkoff. Jack is dean of the Heller School 
of Social Policy at Brandeis and served as chair of the 
Committee on Integrating the Science of Early Childhood 
Development for the Institute of Medicine and the National 
Research Council of the National Academy of Sciences. He co-
edited the final report, ``From Neurons to Neighborhoods: The 
Science of Early Childhood Development.''
    Ed Zigler has been at this committee probably more times 
than I have over 40 years, and we are always glad to have him. 
He is the grandfather of the Head Start program, and we 
recognize his contributions and expertise. He has just been a 
tireless advocate for children and children's needs, has 
written extensively and has been a valued advisor to all of us 
on this committee. We always welcome and learn from Dr. Zigler.
    And Dorothy Strickland, we thank you very much for being 
here. She is a former classroom teacher, reading consultant, 
early learning disabilities specialist, and is past president 
of the National Reading Association and was been very much 
involved in the Summit that Ms. Bush held and was a leader in 
many of those discussions. We look forward to her comments as 
well.
    Welcome, Senator Gregg. Senator DeWine and I restricted 
ourselves to one-minute comments and put our statements in the 
record. I do not want to suggest anything, but if you would 
like to be recognized at this time--I have already said how 
interested you are and what leadership you are providing.
    [Laughter.]
    Senator Gregg. I would love to have you speak for me. I 
will put my statement in the record also.
    [The prepared statement of Senator Gregg follows:]

                  Prepared Statement of Senator Gregg

    In 1989, President George Bush challenged our nation and 
our nation's Governors to do two things: First, to develop a 
strategy to improve our educational system and thereby the 
academic performance of our nation's students and second, to 
work toward the goal that all children would enter school ready 
to learn.
    Well, the first part of the challenge was realized thanks 
to the hard work and dedication of our current President, 
George W. Bush, who challenged those of us in this body to put 
partisanship aside, roll up our sleeves, and get to work on 
behalf of the children. And we did just that.
    With the passing of the ESEA Reauthorization, we have taken 
significant, if not monumental steps to improve the education 
of our K-12 students.
    The second part of the challenge, that all children would 
enter school ready to learn, remains, and has now become the 
focus of our attention.
    I am hopeful that we can embark upon achieving this goal 
with the same passion, commitment, and willingness to put 
politics aside as we did the first.
    It is clear to all of us who have examined the data on 
brain development that learning takes place well before a child 
steps foot inside the kindergarten classroom. The care, 
attention, education and nurture that a child receives prior to 
school sets the foundation for his or her formal education.
    In fact, much of this learning takes place not in the 
classroom, but at home. Parental interactions and involvement 
can have a profound influence on the social and cognitive 
development of pre-school age children.
    Sights, sounds, touches--these are the things that early 
learning is made of. That is what the science tells us. Yet the 
challenge today is how to translate that into effective and 
responsive governmental policy. One that recognizes and 
respects the fact that parents are choosing from a wide variety 
of options, ranging from at-home care, to family care, to 
formal preschool. These options are varied, but they are all 
designed to attain the same goal--that children be able to 
enter school ready to learn.
    Three weeks ago we heard from the First Lady about the 
importance of literacy development. Not from flash cards, but 
from healthy, consistent and responsive adult-child 
interactions.
    Today we will continue to dialogue on these important 
issues. We will learn what science has to tell us about how 
young children learn and under what circumstances are they able 
to learn and thrive. We will examine the importance of quality 
interactions with children, both in the home, and outside of 
the home, and will hear first hand from practitioners who are 
involved in providing enriched early opportunities for children 
and helping parents learn more effectively how to be their 
child's first and most important teacher.
    Mr. Chairman, I thank you for holding this hearing today 
and look forward to a dialogue on this important issue.
    The Chairman. And I see that Senator Bond has arrived. We 
also said good things about you, Senator Bond----
    Senator Bond. Gee, I should have gotten here earlier.
    [Laughter.]
    The Chairman. We are going to have three votes at 10:45, 
and as a result, we each took about 45 seconds to welcome our 
witnesses. I indicated that you have been a strong leader on 
this issue, particularly when you were Governor, and we welcome 
your involvement.
    If you want to say a brief word, we will be glad to hear 
it.

                   Opening Statement of Senator Bond

    Senator Bond. Thank you, Mr. Chairman.
    I will take the suggestion of brevity very seriously. We 
are delighted to have our good friends, Dr. Zigler and others, 
with whom we have worked for many years, but I am extremely 
pleased today that Sharon Rhodes will be speaking about Parents 
as Teachers. I have been working with her since 1985, when we 
started the program statewide in Missouri. She is currently 
director of program development. She has helped develop onsite 
technical assistance. She has worked in cooperation with 
neuroscientists at Washington University to make the scientific 
determinations which prove what we have seen from our own 
nonscientific observation about the importance.
    She has a long history with the Bush Center in Child 
Development and Social Policy at Yale University and serves as 
an adjunct instructor at the National Academy of the School of 
the 21st Century.
    She will be able to tell you why we are so enthusiastic in 
Missouri about Parents as Teachers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. We look forward to her 
testimony.
    Dr. Shonkoff, we will hear from you now.
    I would ask the witnesses to do their best in 5 or 6 
minutes. These are enormously important presentations and are 
the heart of this whole effort, so we do not want to 
shortchange you, but to the extent you can help us, we would 
appreciate it.

   STATEMENTS OF DR. JACK P. SHONKOFF, DEAN, HELLER SCHOOL, 
   BRANDEIS UNIVERSITY, WALTHAM, MA; EDWARD ZIGLER, STERLING 
 PROFESSOR OF PSYCHOLOGY, YALE UNIVERSITY, NEW HAVEN, CT; AND 
    DOROTHY S. STRICKLAND, STATE OF NEW JERSEY PROFESSOR OF 
   READING, GRADUATE SCHOOL OF EDUCATION, RUTGERS, THE STATE 
          UNIVERSITY OF NEW JERSEY, NEW BRUNSWICK, NJ

    Dr. Shonkoff. Thank you, Senator. I am out to prove that an 
academic can speak in less than 6 minutes.
    My name is Jack Shonkoff, and I am dean of the Heller 
School for Social Policy and Management at Brandeis University, 
and I am a board-certified pediatrician.
    Recently, I had the privilege of serving as chair of the 
National Research Council and Institute of Medicine committee 
that produced the widely disseminated report entitled, ``From 
Neurons to Neighborhoods: The Science of Early Childhood 
Development.''
    I would like to begin by thanking Senator Kennedy, Senator 
Gregg, Senators Bond and DeWine, and the other distinguished 
members of this committee who are not able to join us for 
focusing the Nation's attention on our youngest children.
    I am going to speak to you this morning not as an advocate 
but as the chair of a committee of scientists whose analysis, 
conclusions and recommendations were subjected to the rigorous 
review of the National Academy of Sciences. In the spirit of 
brevity, I offer four conclusions from the NRC/IOM report.
    No. 1, molecular biologists at the forefront of the Human 
Genome Project and prominent behavioral scientists all agree 
that each of us is the product of both a unique genetic 
endowment and the influence of our personal life experiences.
    No. 2, human relationships are the active ingredients of 
environmental influence on child development. The well-being of 
young children is influenced most significantly by their 
parents but also by the other important people in their lives, 
who increasingly include nonfamily members who provide early 
care and education.
    No. 3, the development of intelligence, emotions, and 
social skills is highly interrelated. How children feel is as 
important as how they think, and how they are treated is as 
important as what they are taught, particularly with respect to 
their readiness for the challenges of school.
    No. 4, early childhood interventions can have significant 
positive impacts, but programs that work are rarely simple, 
inexpensive, or easy to implement. Poorly designed services 
delivered by inadequately trained providers are unlikely to 
produce measurable benefits.
    In contrast, knowledge-based interventions that are funded 
sufficiently and delivered effectively are a wise public 
investment.
    Policies that dismiss or ignore the science of early 
childhood development miss an opportunity to address the roots 
of many important national concerns. Consider the following 
questions: How can the recently enacted No Child Left Behind 
Act of 2001 call for stronger performance standards and 
financial incentives to attract and retain talented teachers 
while we tolerate inadequate training and poor compensation for 
the providers of early care and education throughout the very 
important preschool years?
    Why do we measure the success of welfare reform primarily 
in terms of labor force participation when large numbers of 
working mothers with young children are still living in poverty 
and extensive research shows that poverty, particularly in the 
first 5 years, is a very strong predictor of academic 
difficulties and failure to complete high school?
    How can we reconcile our concern about violent crime with 
the fact that we have effective treatments for young children 
who have been victimized by family violence and yet most of 
these emotionally traumatized youngsters receive not 
professional mental health services?
    Half a century of considerable public investment in early 
childhood research has generated a rich science base. However, 
the gap between what we know and what we do is unacceptably 
wide. Consider the following examples of how we could narrow 
that gap.
    If we really want to enhance children's readiness for 
school, we must pay as much attention to their emotional health 
as we do to their cognitive skills. Early literacy is clearly 
very important, but knowing the alphabet on your first day of 
school is not enough if you can't sit still or control your 
temper in the classroom.
    If we really want to promote the nurturing and stable 
relationships that are necessary for the healthy development of 
all young children, then we must address two compelling needs 
of equal importance. First, we must find a way to provide paid 
family leave to support parents who wish to stay at home with 
their babies; and second, we must assure affordable and decent-
quality care and education for the infants, toddlers, and 
preschool children of parents who return to work.
    If we really want to secure the Nation's economic and 
political future, we must invest in better training and 
compensation for those who provide early care and education for 
children beginning at birth and up to the entry into school. 
And we must build community-based systems that ensure full 
access to programs that work, and equally important, we must 
rethink the delivery of interventions that do not work.
    The committee of scientists who produced ``From Neurons to 
Neighborhoods'' concluded that the time has come to stop 
blaming parents, communities, business, and government and 
begin a new public dialogue based on rethinking the balance 
between individual and shared responsibility for our Nation's 
youngest children.
    Those who call for greater individual accountability and 
those who advocate for a more active Government role are both 
right. Those who support increased public investments in early 
childhood services have an obligation to measure whether they 
work and how much they cost. Those who oppose Government 
intervention must acknowledge the clear and incontrovertible 
scientific evidence that well-implemented services based on 
sound knowledge can make a significant difference for 
vulnerable children and that marked inequalities in access to 
effective programs result in a highly uneven playing field for 
America's young children well before they ever begin school.
    I thank you very much for the opportunity to speak with you 
this morning, and I would be happy to answer any questions that 
you might have.
    The Chairman. Thank you very much, Dr. Shonkoff.
    [The prepared statement of Dr. Shonkoff follows:]

              Prepared Statement of Jack P. Shonkoff, M.D.
    My name is Jack Shonkoff. I am the Dean of the Heller School for 
Social Policy and Management and Gingold Professor of Human Development 
and Social Policy at Brandeis University. I am also a Board-certified 
pediatrician with two decades of practical experience in the delivery 
of health care and early childhood intervention services who had the 
privilege of serving as Chair of the National Research Council and 
Institute of Medicine Committee that produced the recently released 
report entitled, From Neurons to Neighborhoods: The Science of Early 
Childhood Development.
    I would like to begin by thanking Senator Kennedy and this 
distinguished Committee for focusing the nation's attention on the 
health and development of our youngest children. I also would like to 
acknowledge the support of The First Lady, Laura Bush, who testified 
before this Committee three weeks ago, and underscore the importance of 
a bipartisan approach to this critical national interest.
    I speak with you this morning, not as an advocate or provider of 
services, but as the chair of a committee of scientists who conducted a 
critical analysis of current knowledge about early childhood 
development, and whose conclusions and recommendations were subjected 
to the rigorous review of the National Academy of Sciences. The 
unimpeachable integrity of this distinguished institution and the 
credibility of its endorsement should not be underestimated.
    In the spirit of brevity, I offer four core conclusions from the 
NRC/IOM report. These are not based on my personal opinion. This is 
cutting-edge science.
    1. Human development is determined by both nature and nurture. 
Molecular biologists at the forefront of the Human Genome Project and 
leading behavioral scientists agree that each of us is the product of 
both a unique genetic endowment and the influence of our personal life 
experiences. For young children, beginning at birth, the question is 
not whether early experience matters, but rather how early experiences 
shape individual development.
    2. The essential features of the environment that influence 
children's development are their relationships with the most important 
people in their lives. When these relationships provide love, 
stability, security, responsive interaction, and encouragement of 
exploration and learning, children thrive. When these relationships are 
unstable, neglectful, abusive, or disrupted by significant life 
stresses such as economic hardship, substance abuse, or serious mental 
illness, the consequences can be severe and long lasting. Children's 
early development is influenced most significantly by the health and 
wellbeing of their parents. It is also affected by the quality of their 
relationships with the other important people in their lives, who 
increasingly include non-family providers of early care and education. 
Together these relationships define the cultural context within which 
core values are transmitted from one generation to the next.
    3. The early emergence of intelligence, emotional regulation, and 
social skills are highly inter-related and the development of 
competence in each is closely intertwined with the others. Starting 
from birth, children are remarkably inquisitive explorers who 
experience a range of powerful emotions. Before their first birthday, 
they can feel the exhilaration of mastering a challenging task as well 
as the deep and lasting sadness that builds in response to trauma, 
loss, or early personal rejection. As their brains mature, their 
ability to master new skills grows and these emerging learning 
abilities are linked closely to their capacity to regulate their 
feelings and control their own behavior.
    4. Early childhood programs that deliver carefully designed 
services by well-trained staff can have significant positive impacts on 
young children with a wide range of developmental difficulties, but 
interventions that work are rarely simple, inexpensive, or easy to 
implement. There are no magic bullets or quick fixes for addressing the 
complexities of human development. Poorly designed interventions 
delivered by inadequately trained providers are unlikely to produce 
significant benefits. In contrast, state-of-the-art services that are 
funded sufficiently are a wise public investment that is likely to 
return both short-term developmental dividends and long-term human 
capital gains.
    Stated simply, although the politics of early childhood are 
complicated, the needs of young children are relatively straightforward 
and the messages from the scientific community are clear:
    <bullet> All aspects of human development are influenced by both 
the genes we inherit and the environment in which we live.
    <bullet> Human relationships are the ``active ingredients'' of 
environmental influence on child development.
    <bullet> How children feel is as important as how they think, 
particularly as it affects their readiness to meet the challenges of 
school.
    <bullet> Developmental pathways can be influenced positively by 
effective parenting and supportive environments, and early problems can 
be treated effectively, but the success of early childhood intervention 
services depends on the quality of their implementation and the 
knowledge and skills of those who provide them.
    When our public policies dismiss or ignore the science of early 
childhood development, we miss an opportunity to address the underlying 
roots of many important national concerns. Let me offer a few examples:
    <bullet> How can the recently enacted No Child Left Behind Act of 
2001 emphasize the need for stronger performance standards and 
financial incentives to attract bright and highly motivated teachers, 
while we simultaneously tolerate large percentages of inadequately 
trained and poorly compensated providers of early child care and 
education who have an important influence on the foundations of school 
readiness?
    <bullet> Why do we measure the success of welfare reform primarily 
in terms of labor force participation when large numbers of working 
mothers with young children are still living under the poverty level, 
and recent research indicates that poverty in the first five years may 
be a stronger predictor of not completing high school than is poverty 
in middle childhood or adolescence?
    <bullet> How can we reconcile our national concern about reducing 
violent crime with the fact that we know how to treat very young 
children who have been abused or exposed to family violence, yet most 
of these emotionally traumatized children receive little or no 
professional mental health services?
    <bullet> Why do we focus public debate on the relative merits of 
alternative investment options for the Social Security trust fund and 
not also address the compelling question of how best to invest in the 
young children whose future productivity will be essential to the 
continued viability of the Social Security system ``as we know it?"
    Over the past few decades, there have been marked changes in the 
nature, schedule, and amount of work engaged in by parents of young 
children, and greater difficulty balancing workplace and family 
responsibilities for parents at all income levels. At the same time, 
growing numbers of young children are spending considerable time in 
child care settings of highly variable quality, some of which pose real 
threats to their health and development. In 1999, the National 
Household Education Survey reported that 61 percent of children under 
age 4 were in regularly scheduled child care, including 44 percent of 
infants under 1 year.
    The knowledge needed for informed policies to promote the well-
being of all our nation's children has been gained from nearly half a 
century of considerable public investment in early childhood research. 
Although the science is growing at an increasingly rapid pace, the gap 
between what we know and what we do is unacceptably wide. Let me offer 
a few examples of what could be done to narrow that gap.
    If we really want to enhance children's readiness for school, then 
we must pay as much attention to the development of their social and 
emotional competence as we do to their cognitive and linguistic 
abilities. The current emphasis on early literacy, which should be 
supported, will not achieve its full impact if early childhood 
professionals are not prepared to help the many young children whose 
learning is compromised by limited attention, aggressive behavior, 
anxiety, depression, or difficulty making or sustaining relationships. 
Knowing the alphabet on your first day of school is not enough if you 
can't sit still or control your temper in the classroom.
    If we really want to support families and enhance child well-being, 
then we must promote healthy relationships between young children and 
the adults who raise them. If we really want to strengthen those 
relationships, then we must find a way to create more viable choices 
for working mothers--by developing politically and economically 
feasible mechanisms to provide both paid parental leave for those who 
wish to stay at home with their young children and affordable, quality 
care and early education for the children of those who return to work.
    If we really want to reduce disparities in school readiness based 
on social class, then we must promote real partnerships among federal, 
state, and local governments to create more unified and effective 
systems of services, from birth to school entry. Current early 
childhood programs were established in a piecemeal fashion over time--
and their variable quality and persistent fragmentation result in a 
confusing array of services for families, marked inefficiencies in the 
use of public and private resources, a difficult environment for 
assuring accountability and assessing impacts, and significant 
inequalities in access to programs that are most effective, leading to 
a highly uneven playing field for America's youngest children well 
before they begin school.
    If we really want to secure the economic and political future of 
our nation, then we must enhance the value of our investments in early 
childhood programs by increasing the knowledge, skills, and 
compensation of those who provide these services. An education agenda 
that neglects the professional development of those who influence the 
foundation that is built in the first 5 years of life ignores the 
science of learning, and assures that many children will be left behind 
before they have a chance to start.
    Most children successfully master the challenges of growing up in a 
wide range of circumstances. A significant number do not. Most of those 
who experience difficulties along the way are helped to get back on 
track by the skilled guidance of their parents and other adults who 
care for them. A highly vulnerable subgroup exhibits serious and 
persistent problems that require specialized intervention.
    The NRC/IOM report, From Neurons to Neighborhoods, calls for ``a 
new national dialogue focused on rethinking the meaning of both shared 
responsibility for children and strategic investment in their future.'' 
In its concluding thoughts, the report states:
    The time has come to stop blaming parents, communities, business, 
and government--and to shape a shared agenda to ensure both a rewarding 
childhood and a promising future for all children.
    There is a compelling need for more constructive dialogue between 
those who support massive public investments in early childhood 
services and those who question their cost and ask whether they really 
make a difference. Both perspectives have merit. Advocates of earlier 
and more intervention have an obligation to measure their impacts and 
costs. Skeptics, in turn, must acknowledge the massive scientific 
evidence that early childhood development is influenced by the 
environments in which children live. (National Research Council and 
Institute of Medicine, 2000. pp. 414-15)
    I applaud the efforts of this Committee, under your leadership, 
Senator Kennedy, to focus the nation's attention on our youngest 
children and their families, and I welcome the opportunity to answer 
any questions that you may have. Thank you.

    The Chairman. Dr. Zigler?
    Mr. Zigler. Good morning. It is an honor to be invited back 
to the Senate before this particularly August committee and to 
share my expertise with all of you.
    I am the Sterling Professor of Psychology at Yale 
University. I also head the Psychology Section of the Yale 
Child Study Center and direct the Bush Center in Child 
Development and Social Policy. I have authored 32 books and 
over 600 scientific papers, the majority dealing with topics 
pertinent to children's development and learning.
    In the area of social policy, I have worked with every 
administration, Republican and Democrat, since Lyndon Johnson. 
I served in Washington during the Nixon Administration as the 
first director of what is now the Administration on Children, 
Youth, and Families, and as chief of the United States 
Children's Bureau.
    I was one of the planners of our Nation's Head Start 
Program and a recent spinoff as well, Early Head Start. Over 
Head Start's 36 years, I have become known as both its best 
friend and its most vocal critic. Of late, there have been 
criticisms that Head Start is not doing a very good job 
teaching literacy to its young students. I will offer my 
suggestions on that point in a moment.
    First, let me state that I concur that the ability to read 
is absolutely essential for an individual to have a successful 
life. I therefore applaud President and Mrs. Bush for the 
impetus they have provided to assure that every child in 
America will be a successful reader.
    However, as someone who has studied the growth and 
development of children for almost 50 years now, it is my 
responsibility to point out that reading is just one aspect of 
cognitive development and that cognitive development is just 
one aspect of human development.
    Cognitive skills are of course very important, but they are 
so intertwined with the physical, social, and emotional systems 
that it is myopic, if not futile, to dwell on the intellect and 
exclude its partners. This is one of the many good points that 
my colleague, Jack Shonkoff, made before you just minutes ago.
    Think about what goes into literacy. Yes, it involves 
mastery of the alphabet, phonemes, and other basic word skills. 
But a prerequisite to achieving mastery is good physical 
health. The child who is frequently absent from school because 
of illness, or who has vision or hearing problems, will have a 
difficult time learning to read. So will children who suffer 
emotional troubles such as depression, attention deficits, or 
posttraumatic stress disorder.
    And think about motivation. A child's curiosity and belief 
that he or she can succeed are just as important tao reading as 
knowing the alphabet. Phonemic instruction by the most 
qualified teacher will do little for a child who suffers from 
hunger, abuse, or a sense of inferiority.
    I am urging that we broaden our approach to literacy by 
focusing on the whole child. We must also broaden our 
understanding of when and where literacy begins. I was 
delighted with the First Lady's forum with you recently in 
which she went back to her role as a parent in teaching words 
and language to her own children.
    I have heard a lot of preschool teacher-bashing lately, but 
in reality, literacy begins much earlier than age 4, as Mrs. 
Bush pointed out to you. It begins with the thousands of loving 
interactions with parents after an infant is born. It begins as 
a child develops a sense of self-worth by realizing that his or 
her accomplishments, whether they be learning to roll over or 
to recite the alphabet, are important to significant others. It 
begins with sitting in a safe lap, hearing a familiar bedtime 
story. Eventually, the child will want to emulate the parent 
and read, too. Reading, then, begins with meeting the child's 
physical, social, and emotional needs, followed by exposure to 
more formal literacy skills.
    This broader view was recently endorsed in the wonderful 
new book, ``From Neurons to Neighborhoods,'' with one of its 
authors to my right, where the finest child development 
thinkers in this country pointed out the importance of 
emotional and motivational factors in human development.
    This statement in this important book in my view corrected 
a shortcoming of my field for the past 50 years--namely, an 
emphasis on cognitive development to the exclusion of 
personality and motives, which are so central to the burgeoning 
new discipline of emotional intelligence.
    The President is correct in his recent championing of the 
child's character. Piece by piece, then, the President is 
discovering the whole children--recognition that has been one 
of the great strengths of our Nation's Head Start program.
    Head Start is an early education program, but it is also a 
physical and mental health program. It is dedicated to 
involving the parents who, after all, will have a greater 
influence on the child's learning than any other source.
    The new Early Head Start program in fact emphasizes parent-
child interactions--the very place where literacy begins. 
Senator Kennedy realized the importance of the years zero to 3 
some time ago, and I commend him for making Early Head Start a 
reality in this country. Since then, Senator Kennedy and other 
members of this august committee, it has grown from 17 sites to 
over 600 sites.
    You have all heard recent reports that children are 
graduating from Head Start with few pre-reading skills. Yet a 
sizeable literature shows that they are more ready for school, 
and even the recent FACES evaluation of Head Start shows good 
progress, including literacy, in kindergarten.
    Do I believe that Head Start should do more to promote 
literacy? Most definitely. The new performance standards are 
moving the program toward more defined curricula with specific 
goals for literacy and related skills.
    But Head Start needs the resources to carry out these 
plans. If we want well-trained teachers who can implement sound 
educational programs that send children on their way to 
reading, we simply have to pay them more than poverty-level 
wages. And if we want to draw more low-income parents into 
their children's learning, we need to expand Early Head Start.
    I am very much afraid that the budget request of the 
President for Head Start is disappointing to me and certainly 
does not meet Dr. Shonkoff's urging that you need decent 
salaries and high-quality programs to achieve ends, 
particularly with poor children.
    Shoring up the quality of Head Start can have an impact far 
beyond its target population. Head Start is a model program 
whose success in promoting school readiness has fed the 
movement toward universal preschool. Head Start quality 
standards are beginning to filter to child care settings, and 
the child care settings in this Nation are one of the huge 
problems and certainly the tragedy of America's children for 
the past 30 years. A lot of research has shown that most child 
care in this Nation is poor to mediocre. Yet millions of 
infants and toddlers--the very ages when literacy begins--are 
spending their days in such places.
    In sum, if we want a nation of readers, we have to look 
beyond teaching phonics. We have to look at the whole child, 
the parents, and at all of the people and experiences that make 
up the child's early learning environment.
    Thank you.
    The Chairman. Thank you very much, Dr. Zigler.
    [The prepared statement of Mr. Zigler follows:]

                  Prepared Statement of Edward Zigler
    It is an honor to be invited back to the Senate, and to share my 
expertise with this committee. I am the Sterling Professor of 
Psychology at Yale University. I also head the Psychology Section of 
the Yale Child Study Center and direct the Bush Center in Child 
Development and Social Policy. I have authored some 30 books and over 
600 scholarly papers, the majority dealing with topics pertinent to 
children's development and learning. In the area of social policy, I 
have worked with every administration, both Republican and Democrat, 
since Lyndon Johnson. I served in Washington during the Nixon 
Administration as the first director of what is now the Administration 
on Children, Youth and Families, and as Chief of the United States 
Children's Bureau. I was one of the planners of our nation's Head Start 
program and a recent spin off, Early Head Start. Over the program's 36 
years, I have become known as both its best friend and its most vocal 
critic.
    Of late there have been criticisms that Head Start is not doing a 
very good job teaching literacy to its young students. I will offer my 
suggestions on that point in a moment. First, let me state that I 
concur that the ability to read is absolutely essential for an 
individual to have a successful life. I therefore applaud President and 
Mrs. Bush for the impetus they have provided to assure that every child 
in America will be a successful reader. However, as someone who has 
studied the growth and development of children for some 45 years, it is 
my responsibility to point out that reading is just one aspect of 
cognitive development, and that cognitive development is just one 
aspect of human development. Cognitive skills are of course very 
important, but they are so intertwined with the physical, social, and 
emotional systems that it is myopic, if not futile, to dwell on the 
intellect and exclude its partners.
    Think about what goes into literacy. Yes, it involves mastery of 
the alphabet, phonemes, and other basic word skills. But a prerequisite 
to achieving mastery is good physical health. The child who is 
frequently absent from school because of illness, or who has vision or 
hearing problems, will have a difficult time learning to read. So will 
children who suffer emotional troubles such as depression, attention 
deficits, or post traumatic stress disorder. And think about 
motivation. A child's curiosity and belief that he or she can succeed 
are just as important to reading as knowing the alphabet. Phonemic 
instruction by the most qualified teacher will do little for a child 
who suffers from hunger, abuse, or a sense of inferiority.
    I am urging that we broaden our approach to literacy by focusing on 
the whole child. We must also broaden our understanding of when and 
where literacy begins. I've heard a lot of preschool-teacher bashing 
lately, but in reality, literacy begins much earlier than age four. It 
begins with the thousands of loving interactions with parents after an 
infant is born. It begins as a child develops a sense of self-worth by 
realizing that his or her accomplishments, whether they be learning to 
roll over or to recite the alphabet, are important to significant 
others. It begins with sitting in a safe lap, hearing a familiar 
bedtime story. Eventually the child will want to emulate the parent and 
read too. Reading, then, begins with meeting the child's physical, 
social, and emotional needs, followed by exposure to more formal 
literacy skills.
    This broader view was recently endorsed in the wonderful new book, 
From Neurons to Neighborhoods, where the finest child development 
thinkers in the country pointed out the importance of emotional and 
motivational factors in human development. This statement corrected a 
short-coming of my field for the past 50 years--namely an emphasis on 
cognitive development to the exclusion of personality and motives, 
which are so central to the burgeoning new discipline of emotional 
intelligence. The President is correct in his recent championing of the 
child's character. Piece by piece, then, the President is discovering 
the whole child--recognition that has been one of the great strengths 
of our nation's Head Start program.
    Head Start is an early education program, but it is also a physical 
and mental health program. It is dedicated to involving the parents, 
who, after all, will have a greater influence on the child's learning 
than any other source. The new Early Head Start program in fact 
emphasizes parent-child interactions, the very place where literacy 
begins. Senator Kennedy realized the importance of the years zero to 
three some time ago and was the one who made Early Head Start a 
reality. Since then, it has grown from 17 sites to over 600.
    You have all heard recent reports that children are graduating from 
Head Start with few prereading skills. Yet a sizeable literature shows 
that they are ready for school, and even the recent FACES evaluation of 
Head Start shows good progress, including literacy, in kindergarten. Do 
I believe that Head Start should do more to promote literacy? Most 
definitely. The new performance standards are moving the program toward 
more defined curricula with specific goals for literacy and related 
skills. But Head Start needs the resources to carry out these plans. If 
we want well-trained teachers who can implement sound educational 
programs that send children on their way to reading, we simply have to 
pay them more than poverty level wages. And if we want to draw more 
low-income parents into their children's learning, we need to expand 
Early Head Start.
    Shoring up the quality of Head Start can have an impact far beyond 
its target population. Head Start is a model program whose success in 
promoting school readiness has fed the movement toward universal 
preschool. Head Start quality standards are beginning to filter to 
child care settings. A lot of research has shown that most child care 
in this nation is poor to mediocre. Yet millions of infants and 
toddlers--the very ages when literacy begins--are spending their days 
in such places.
    In sum, if we want a nation of readers, we have to look beyond 
teaching phonics. We have to look at the whole child, the parents, and 
at all of the people and experiences that make up the child's early 
learning environment.

    The Chairman. Ms. Strickland?
    Ms. Strickland. I am Dorothy Strickland, and I am the State 
of New Jersey Professor of Reading at Rutgers University. I 
would like to thank the committee for this opportunity to share 
some of the current thinking about the importance of parent 
involvement in early childhood development. It is an honor to 
be here.
    I will concentrate my remarks on the development of 
language and literacy since this is where most of my work has 
been focused. I am a teacher-educator, and I have done a fair 
amount of research over the years. My primary contribution to 
the field has been as a translator of research to practice. I 
have been a classroom teacher and a learning disabilities 
specialist. I am also a mother and a grandmother. So I bring 
many perspectives to the table.
    Although I focus my remarks today on parents, virtually 
everything I have to say also applies to child caregivers, 
whether they are grandparents or child care workers in home 
care or preschool settings. These individuals are often with 
young children for most of their working hours, and of course, 
caregivers frequently act in familial ways with the children in 
their charge.
    I have organized my remarks around three major points. 
First, I will list what the research says, and then I will give 
the implications for parents and caregivers as they relate to 
those points.
    I would like to say up front that I agree whole-heartedly 
that language and literacy development should never, ever be 
stressed at the expense of other domains of children's 
development.
    Point one is that literacy learning starts early and 
persists throughout life. That has already been said this 
morning as well. Learning to read and write is an ongoing 
process from infancy. Contrary to popular belief, it does not 
simply start at kindergarten or first grade. From the earliest 
years, everything that adults do to support children's language 
and literacy really, really counts, and that is a message that 
we need to get out.
    The research indicates that although oral language is 
foundational to literacy development, the two really do develop 
concurrently. What children learn from listening and talking 
contributes to their ability to read and write, and vice versa. 
Phonological awareness and phonics, which has already been 
mentioned, begins early, and rhyming games and chants begin 
right on a parent's knee.
    Children who fall behind in oral language and literacy 
development are less likely to be successful beginning readers, 
and their achievement tends to lag behind throughout the 
grades; it tends to persist.
    It is not enough to simply teach early literacy skills in 
isolation. I think that is a common criticism and fear among 
many early childhood caregivers and is definitely something 
that should be reckoned with. The research tells us that 
teaching children to apply the skills in meaningful situations 
has a significantly greater affect on their ability to read.
    The implication, of course, is that parents need to know 
that the child's capacity for learning is not determined at 
birth, and there is really a great deal that they can do about 
it. They should be aware that there are many informal and 
enjoyable ways that language and literacy skills can be 
developed in the home--and in fact, these are the only ways 
that they should be developed. They should provide 
opportunities for children to use what they know about language 
and literacy in order to help them transfer what they know to 
new situations. Mindless rote memorization is not the way to 
teach young children.
    Point two is that oral language is the foundation for 
literacy development. So when we talk about language and 
literacy with a very young child, we are really talking largely 
about oral language. Oral language provides children with a 
sense of words and sentences, builds sensitivity to the sound 
system so that children can acquire phonological awareness and 
phonics, and it is the means by which children demonstrate 
their understandings of the meaning of words and written 
materials.
    Research indicates that children reared in homes where 
parents provide rich language and literacy support do better in 
school than those who do not. Language-poor families are likely 
to use fewer different words in their everyday conversation, 
and the language environment is often more controlling and 
punitive. This is a big concern of many of us.
    Exposure to less common, more sophisticated vocabulary, 
sometimes called ``rare words,'' at home relates directly to 
children's vocabulary acquisition.
    There is a strong relationship between vocabulary 
development and reading achievement. We know that good readers 
combine a variety of strategies to read words and that even 
when children have excellent decoding skills, they frequently 
meet words for which the pronunciation is not easily 
predictable. My point here is that meaning is very important, 
that children bring more than just phonics to the code and 
their understanding of the code to a text; that understanding 
vocabulary concepts is very important to get meaning from the 
text.
    The implications have to do with things that you have heard 
many times before--take time to listen and respond to children; 
talk to and with children, not simply at them; engage children 
in extended conversations, explain things to kids, and do not 
be afraid to use sophisticated language with children.
    Point three is that children's experiences with the world 
and with print greatly influence their ability to comprehend 
what they read. True reading--and I emphasize ``true'' 
reading--involves understanding. There is no real reading 
unless there is understand.
    What children bring to a text, whether oral or written, 
influences the understandings they take away. The more limited 
a child's background experience, the less likely this child 
will be a skilled reader. So that background knowledge about 
the world is very, very important. For poor kids and minority 
kids, this is something that is often either misunderstood or 
ignored, that to be a good reader, they really need to have a 
wide variety of experiences. It is not just a question of 
sitting them down and drilling them on the alphabet. And also 
important, of course, is their background knowledge about print 
and books.
    The implications of course are that parents and caregivers 
need to keep in mind that interesting concepts and vocabulary 
do not emerge from a vacuum. We know a lot more today about not 
simply maintaining kids, but providing interesting content for 
them to talk about and think about--trips to local points of 
interest, talking to kids about what they see and with them 
about what they see, raising questions of children and 
responding to their questions, providing time for reading and 
talking about what is ready, an increased use of informational 
books in the early years is very important--something that, 
again, we did not realize how important it was--not just story 
books and Mother Goose rhymes, which are also very important, 
but informational text--and providing time for children to 
``pretend read,'' that is, to go back and reenact the read-
aloud experience on their own.
    In a setting like this, one cannot help but think of the 
famous questions: ``What did you know, and when did you know 
it?'' I have offered what I think are among the most important 
things that we know about parent involvement in early childhood 
language and literacy development.
    I can tell you that we have known these things for some 
time. They are not really brand new. Perhaps the key question 
that you might ask of me today is: ``What are you doing about 
it?''
    There are some important efforts in place, most notably 
some of the Even Start programs and Family Literacy programs 
that are involved with Head Start, but I do not think that we 
have really touched the surface of what the potential is for 
spreading this information and really acting on it. And most 
critically, we have not really reached the moms and dads who 
stay at home, that stay-at-home population; nor have we reached 
very well family day care providers. Perhaps we need to find 
more creative and innovative ways to meet and to address the 
needs of these people. Certainly, the media might be of help; 
links with existing child care providers and support agencies 
might also be of help.
    Finally, we need to explore innovative ways of using 
technology. We have to explore innovative ways to reach what is 
a relatively amorphous population, provide incentives for 
participation, support for professional development and better 
compensation for child care workers to ensure quality in the 
outreach programs that we do provide.
    Thank you very much.
    [The prepared statement of Ms. Strickland follows:]

              Prepared Statement of Dorothy S. Strickland
    Thank you for this opportunity to share some of the current 
thinking about the importance of parent involvement in early childhood 
development. I will concentrate my remarks on the development of 
language and literacy, since this is where most of my work has been 
focused.
    I am a teacher educator. Though I have done a fair amount of 
research over the years, my primary contribution to the field has been 
as translator of research to practice.
    I have been a classroom teacher and learning disabilities 
specialist. I am also a mother and grandmother. So, I bring many 
perspectives to the table.
    Though I focus my remarks today on parents, virtually everything I 
have to say also applies to child caregivers, whether they are 
grandparents or childcare workers in home care or preschool settings. 
These individuals are often with young children for most of their 
waking hours and, of course, caregivers frequently act in familial ways 
with the children in their charge. I have organized my comments around 
three major points:
  point 1. literacy learning starts early and persists throughout life
    Learning to read and write is an ongoing process from infancy. 
Contrary to popular belief, it does not suddenly begin in kindergarten 
or first grade. From the earliest years, everything that adults do to 
support children's language and literacy really counts.
Research indicates that:
    Although oral language is foundational to literacy development, the 
two also develop concurrently. What children learn from listening and 
talking contributes to their ability to read and write and vice versa. 
For example, young children's phonological awareness (ability to 
identify and make oral rhymes, identify and work with syllables in 
spoken words, and the ability to hear, identify, and manipulate the 
individual sounds--phonemes--in spoken words) is an important indicator 
of their potential success in learning to read. Phonological awareness 
begins early with rhyming games and chants, often on a parent's knee.
    Children who fall behind in oral language and literacy development 
are less likely to be successful beginning readers; and their 
achievement lag is likely to persist throughout the primary grades and 
beyond. (Juel)
    It is not enough to simply teach early literacy skills in 
isolation. Teaching children to apply the skills they learn has a 
significantly greater effect on their ability to read. (Report of the 
National Reading Panel)
Implications:
    Parents and caregivers need to--
    <bullet> Know that a child's capacity for learning is not 
determined at birth and there is a great deal they as parents and 
caregivers can do about it. (Zero to Three)
    <bullet> Be aware that there are many informal and enjoyable ways 
that language and literacy skills can be developed in the home.
    <bullet> Provide opportunities for children to use what they know 
about language and literacy in order to help them transfer what they 
know to new situations.
   point 2. oral language is the foundation for literacy development
    Oral language provides children with a sense of words and 
sentences; builds sensitivity to the sound system so that children can 
acquire phonological awareness and phonics; and it is the means by 
which children demonstrate their understandings of the meanings of 
words and written materials.
Research indicates that:
    Children reared in families where parents provide rich language and 
literacy support do better in school than those who do not. Language-
poor families are likely to use fewer different words in their everyday 
conversations and the language environment is more likely to be 
controlling and punitive. (Hart & Risely)
    Exposure to less common, more sophisticated vocabulary (rare words) 
at home relates directly to children's vocabulary acquisition. Rare 
words are those that go beyond the typical 8,500 most common words in 
the English language. (Dickinson & Tabors)
    There is a strong relationship between vocabulary development and 
reading achievement. We know that good readers combine a variety of 
strategies to read words; and that even when children have excellent 
decoding skills, they frequently meet words for which the pronunciation 
is not easily predictable. Children, who acquire strong vocabularies, 
increase their ability to make use of what a word might be along with 
what they know about phonics. (Nagy, Clay)
Implications:
    Parents and other caregivers should--
    <bullet> Take time to listen and respond to children.
    <bullet> Talk to and with children not at them.
    <bullet> Engage children in extended conversations about events, 
storybooks, and a variety of other print media.
    <bullet> Explain things to children.
    <bullet> Use sophisticated and unusual words in their everyday talk 
with children, when it is appropriate to the conversation.
 point 3. children's experiences with the world and with print greatly 
          influence their ability to comprehend what they read
    True reading involves understanding. What children bring to a text, 
whether oral or written, influences the understandings they take away.
Research indicates that:
    The more limited a child's experiences the more likely he or she 
will have difficulty with reading. There are two kinds of experiences 
that are highly influential to literacy development. Both can and 
should be provided in the home:
    Background knowledge about the world
    Background knowledge about print and books (Rand/OERI Report)
Implications:
    Parents and caregivers need to--
    <bullet> Keep in mind that interesting concepts and vocabulary do 
not emerge from a vacuum. Parents should help provide interesting 
content to think and talk about.
    <bullet> Involve children in trips to local points of interest and 
talk with them about what they see and do.
    <bullet> Establish a habit of raising and responding to children's 
questions about things that occur in the home environment or at trips 
to local points of interest.
    <bullet> Provide time for reading to children and talking with them 
about what is read.
    <bullet> Share a variety of types of literature, including lots of 
informational books. Books stimulate conversations about ideas and 
concepts beyond everyday experiences.
    <bullet> Make books accessible for children to return to on their 
own to ``pretend read''--a child's personal reenactment of the read-
aloud experience.
    In a setting like this, one cannot help but think of the famous 
questions: ``What did you know?'' and ``When did you know it?'' I have 
offered what I think are among the most important things that we know 
about parent involvement in early childhood language and literacy 
development. I can tell you that we have known these things for some 
time. Perhaps the key question of me today is ``What are you doing 
about it?"
    There are some important efforts in place, most notably some of the 
Even Start programs and the Family Literacy programs that are involved 
with Head Start. I do not think that we have touched the surface, 
however, in terms of reaching the vast number of parents who need this 
information, particularly those who choose to stay at home with their 
children and those who are caregivers in family day care settings. My 
concern is that too few children are benefiting from what we already 
know. Reaching stay-at-home parents and family day care providers, 
perhaps through the media or through links with existing child care 
providers, may be the new frontier of support for early childhood 
development.

    The Chairman. Thank you very much.
    We have been joined by Senator Dodd and Senator Jeffords. I 
mentioned that Senator Dodd was chairman of our Children's 
Caucus, and this has been a primary issue of his interest and 
concern and leadership.
    Senator Jeffords has been a voice in terms of the preschool 
learning experience and held extensive hearings on this for a 
long period of time and has been a very important leader on our 
committee on this.
    Senator Murray has been passionate about it as well.
    So we have a lot of members here. I mentioned that we will 
be interrupted at 10:45 with three votes, which is going to 
interfere with both this panel and our second panel, which we 
apologize for. But if you are all good enough to remain through 
the course of the afternoon today, we are going to have a good 
working session with all of you and our staffs to go through 
both the recommendations this morning as well as ideas and 
suggestions, so that will be very important and helpful to our 
committee as well as to other staffs who have been interested 
in these issues. Senator Voinovich, Senator Stevens, and many 
others are interested and will be included.
    I know Senator Dodd has to leave, so I will yield my time 
to him at this time.
    Senator Dodd. Thank you, Mr. Chairman.
    You are right, and there are also other hearings going on 
on a variety of subject matter, so it is a little confusing, 
but many of you have appeared before Congress before--Ed, a 
dear friend for so many years, I would like a nickel for every 
time you have appeared before congressional committees over the 
last 35 or 40 years. It is a pleasure to welcome you here 
again, as well as Dr. Shonkoff and Dr. Strickland.
    Thank you, Mr. Chairman. This is an extremely important set 
of issues, and I certainly want to commend the First Lady as 
well for expressing a real interest in this subject matter.
    I think the title of the hearing, ``From Science to 
Practice,'' is important. For me in a sense, there is no real 
debate about the science. I hope that debate is over with. We 
are no longer arguing about the science of this. Apparently, 
there are some who want to continue the debate, but as far as I 
am concerned, that debate is over with. The question now is 
whether or not we have the will as a people and as a Congress 
to do what is clear, it seems to me, and that is whether or not 
we are willing to commit the resources necessary and understand 
the reality of what occurs across the country.
    I know that for many of you in the audience and our 
witnesses, these numbers are routine, but I repeat them often 
because I do not think enough people really understand them. 
Seventy-eight percent of mothers with school-age children are 
working today--78 percent of women with school-age children are 
in the work force today. Sixty-five percent of mothers with 
children under the age of 5 are in the work force, and more 
than 50 percent of women with infants are in the work force. 
And the numbers are growing.
    That is the reality. That is the hard reality. And those 
numbers are not going away. In fact, every indication, of 
course, is that they are continuing to move up.
    So the issue is--and I think it is obviously very important 
what happens with parents as first teachers and the like; that 
is very, very important--but the critical issue is going to be 
whether or not we have the intestinal fortitude to provide the 
resources, the training, and the backing for those people who 
watch and care for our children, many of them infants--as many 
as 6 million infants that I know of are in child care settings, 
and when you start adding toddlers, that number goes up to 14.5 
million every day--how well-trained are those people? What is 
happening in those centers and family day care homes? What is 
happening in terms of how these children are being cared for?
    So for me, that is the critical issue, whether or not in a 
Head Start setting--and you can even talk about children in 
school, pre-K programs for 2 to 3 hours, after school 
programs--when you start adding these numbers, again, it seems 
to me that we have a tremendous amount to do.
    And again, I am preaching to the choir on some of these 
issues, but we have to expect that a child care worker must 
also be able to teach. On average, you are paying $15,000 to 
$16,000 a year for a child care worker; it is double that 
amount in almost every school district in America for a 
teacher. So you are getting these people to come, but they 
leave very quickly. You cannot get them to stay. Or, if you 
have something less than a consistent child care setting, where 
you have an aunt, an uncle, a brother, a sister, there is no 
consistency to that at all in many ways for children. With 
parents who are earning $75,000 a year or more, there are huge 
numbers of their children who are in center-based child care 
programs. And for the poorer families, of course, there are 
not.
    So I am hopeful that we can concentrate to a large extent 
on the reality, and that is who is caring for children every, 
single day and how many of them are in a nonfamilial setting so 
that you have the opportunity to see to it they will get the 
skills to be ready to learn.
    We introduced last spring, as the chairman knows, the FOCUS 
Act, which is based on the North Carolina T.E.A.C.H. program. 
Given the resources, States would be able to improve 
compensation and/or benefits for child care workers based on 
their level of training, education, and experience. Child care 
workers would be eligible for scholarships so that they can 
further their education and training, combining their 
scholarships with Pell Grants necessary to get an associate or 
bachelor's degree in early childhood education.
    Mr. Chairman, I really appreciate your giving me a minute 
to talk about this, and again, I know that many in the audience 
understand it, but as we look at the welfare reform 
reauthorization bill, and as the economy is cratering a bit, 
what happens is that unemployment rates go up, the ranks of the 
unemployed increase, the difficulty of people finding jobs, 
being out there looking for jobs, and of course, what happens 
to their children who do not have the advantages of having a 
parent home every day to go through the routine of providing 
the kind of basic educational needs that we would like to see 
them get.
    With that, I thank you.
    The Chairman. Thank you very much, Senator Dodd.
    Senator DeWine, you are recognized.
    Senator DeWine. For questions, Mr. Chairman?
    The Chairman. Yes.
    Senator DeWine. I thought Senator Dodd was making an 
opening statement. I thought we were still on opening 
statements.
    Thank you very much.
    We get into a battle sometimes in this country over--it 
becomes a political or an ideological battle, I guess--over the 
issue of stay-at-home parents versus working parents, and I 
think Senator Dodd has expressed it very well as he always 
does, and we take the numbers where we find them today, and a 
large number of women are in fact working, men are working, 
both parents are working, and there is no one home with the 
child, so the child is in a day care setting.
    I was interested, though, in the testimony of all three of 
you, really, which in essence seems to say we need to put these 
political battles aside, and we need to accept the reality, and 
we need to understand that the stay-at-home mom may need some 
assistance that we don't think about. I was kind of intrigued 
by that as well as the comment, of course, that we have to 
bolster what we are doing with child care.
    Let me start with the stay-at-home parent. Several of you 
alluded to that but did not really explain what your specific 
recommendations are, and I wonder if you could go into that a 
little bit.
    I guess the assumption is that, intuitively, a stay-at-home 
mom does not really need any help.
    Dr. Zigler?
    Mr. Zigler. Repeat the last point, Senator.
    Senator DeWine. Intuitively, I think many people think that 
the stay-at-home mother or father with the child is going to be 
okay, and that we as a society do not need to worry about 
giving any extra assistance there. Your point also, I think, 
was that we need to deal with parental leave.
    Mr. Zigler. Yes, that is one. First of all, Senator, you 
are right. One of the sadnesses in observing the social scene 
for quite a while has been this divisiveness that I have 
witnessed between this notion of working women, which Senator 
Dodd has so ably pointed out the numbers on, and stay-at-home 
moms. There should have never been any fight. Working women 
love their children just as much as stay-at-home moms love 
theirs. There is no fight between these two groups. They both 
have great needs that are not being met.
    Senator DeWine. And--excuse me--the fight is not between 
the groups. Sometimes the fight is with politicians; we sort of 
get involved in this a little bit.
    Mr. Zigler. Unfortunately, if you read Betty Friedan's 
``The Second Shift,'' she chastises her own movement for 
causing this divisiveness. So I am always glad to blame 
politicians. I think that scholars and thinkers have to take 
some of the blame. But a great deal should be done for parents 
who stay at home. First of all, these figures that Senator Dodd 
gave--one of the most dramatic changes in my lifetime 
demographically is the one Senator Dodd just alluded to, that 
today, something on the order of 55 percent of women with 
babies under the age of one are in the out-of-home work force.
    Where are those babies? The fact is that they are often in 
infant and toddler child care. We have the four-State study 
which indicates that 40 percent of that care for infants and 
toddlers is so poor in quality as to compromise not only the 
growth and development of children, but to place their health 
and safety at risk.
    So for stay-at-home moms, they should have Social Security 
rights, which they have been arguing for for many years; they 
do important work, which is unfortunately not considered work. 
It is very hard work being a stay-at-home mom, raising 
children. We should make it possible for all women, whether 
they are working or staying at home, to stay with their own 
children for at least those first 6 months of life. As the 
national commission that I headed recommended some 20 years 
ago, and which Senator Dodd picked up on and gave us the unpaid 
Family and Medical Leave Act, which I commend him for--but we 
have to move forward to paid leave. I recommend for your 
attention the bill that he has to help the States move in that 
direction, as does Lynn Woolsey on the House side.
    So stay-at-home moms need help with parenting as well. That 
is why I am delighted to see Parents as Teachers represented on 
your second panel, which Senator Bond so ably put in place in 
Missouri when he was Governor there, and I cannot commend him 
too highly for that move, which we can now find in some 2,800 
communities in this country.
    So the kind of parent help that that organization gives to 
stay-at-home moms is one of the supports we can give. Family 
support of all types--something that has happened in this 
country which is not very well-known has its headquarters in 
Chicago, in the Family Forum--there is a new family support 
movement going on, helping stay-at-home moms and working moms 
get the services that they need out of the community--brokering 
services, not providing them--more of that sort of thing, and 
informational and referral systems to help moms get good child 
care, or stay-at-home moms. In my Schools of the 21st Century, 
we have an information and referral system for all mothers that 
helps them in this complex society. I mean, how many people 
even know about CHIP, which I think was a great victory for the 
children of this country? Now the problem is to get people to 
enroll.
    So there is a role for all of these kinds of activities.
    Senator DeWine. Dr. Strickland?
    Ms. Strickland. I would only add that the National Center 
for Family Literacy has been documenting some of these best 
practices, and there are some very fine programs that exist 
where there is outreach to parents who are at home. So that 
using the existing structures to do this is a very good thing, 
but it is very difficult sometimes to find these people, and I 
think more emphasis needs to be there to let people know what 
the services are and to help provide them on parents' own 
terms.
    Senator DeWine. Dr. Shonkoff.
    Dr. Shonkoff. I really appreciate your question because I 
think it is tremendously important, and you are right--as 
Senator Dodd said, the science is not that complicated, but the 
politics is enormously complicated. I think one huge mistake 
would be to somehow think that because we have so much science 
right now, we can make raising children a science. It is not a 
science, it is an art, but it certainly could be informed by a 
lot of science.
    So to directly respond to your question, Senator DeWine, on 
the one hand, I think we need to find ways to get as much 
information in an understandable way as we can to parents in 
this country so that they can feel confident raising their 
children and have access to this information.
    I think we also desperately need to find some way to really 
give parents of young children a choice, particularly mothers, 
about whether and when to go back to work. For many families, 
there is no choice about going back to work because they have 
to have the income in order to get by. If there were a way to 
have some economic support to stay home, more mothers might 
stay home.
    The flip side of that is that when people go back to work, 
whether they have to or because they choose to, the science 
just kind of drowns you in information, but the quality of the 
environment the kids are in really makes a difference. Dr. 
Strickland was very eloquent on that, and Dr. Zigler has been 
for a long, long time. That is where the quality of these 
environments, which cost money, really matters. And I 
particularly appreciated Dr. Strickland's comments about the 
fact that early literacy starts in infancy with reading to 
children, and the nature of the language environment. And also, 
I am not a mental health person--it is interesting--I came 
through this ``Neurons to Neighborhoods'' experience as a real 
advocate for more attention to social and emotional development 
and mental health, not because I came in with that perspective, 
but just the science made you a believer in that.
    So it is not just the language and the literacy that is 
important in these nonfamily environments, but it is the 
ability to understand and manage behavior. We have an explosion 
in the use of psychopharmacology in young kids in this country. 
I was in the pediatric world for a good number of years, and 
the prescriptions for stimulants for attention deficit disorder 
and for antidepressants in 2- and 3-year-olds is exploding in 
this country, and part of it is because nobody knows how to 
deal with behavior, and there are not resources and services to 
take care of it. All these kids were in child care settings 
where they are sometimes being thrown out. You know, there is 
no mandatory child care, so kids are getting expelled from 
these settings because the people who work there do not know 
how to handle them.
    So this costs money for sure, and it is very complicated, 
but we have so much knowledge to tell us how to do it, and we 
could be doing a lot better
    Senator DeWine. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Dr. Shonkoff, let us continue that thought. What is it that 
we have learned from the science that is so important both in 
terms of parents and people who are interested in early 
learning that we have seen in zero to 5, particularly in the 
early grades? And I will ask Dr. Zigler that question as well.
    Dr. Shonkoff?
    Dr. Shonkoff. I will actually try to summarize mountains of 
science in a few simple points. One of the things that we have 
learned, and we have learned it very well, is how important 
these early relationships are to promoting learning, to 
promoting healthy social and emotional development. So we know 
a lot about what helps a child be a good learner, and it has to 
do with these stable, nurturing relationships, ideally with 
parents, and very important with other people who are not 
members of the family.
    We have also learned from the brain research, and I think 
this is where we have to burst some myths. The brain research 
has taught us a lot about how learning gets incorporated into 
the brain. It tells us very little about how to produce super 
brains. It tells us a lot about how we can hurt brains. So the 
public grabs onto some of these gimmicks. For example, Mozart 
tapes were big for a while, and there is no science about that. 
People are peddling expensive educational toys for kids. The 
science, from the behavioral science to the brain science, 
tells us that the best way to promote learning and healthy 
brain development is to have people who care for and love kids 
take care of them, nurture them, provide opportunities to 
learn, reinforce their learning, and provide a rich language 
environment.
    We have a huge amount of science that tells us what happens 
to brains when the environment is not appropriate. A lot of 
this is from animal studies, because we do not have studies 
where we carve up tissues in human brains and look at what 
happens, but the things that get into the press about how 
stimulation produces more synapses and more connections between 
cells and all that.
    Actually, Bill Greenow, who has done a lot of that research 
in mice and rates, was on our panel, and he educated us as to 
what that research was all about. It is something really 
important for the committee to understand. The animal studies 
that show that if you are in ``stimulating'' environments, you 
have more dense connections among your brain cells, and you 
learn better--that is true, but the difference between putting 
rats in complicated cages and putting them in simple cages is 
that in the complicated cages, they had a lot of colors and 
toys to play with, and the rats in those cages learned mazes 
better, and when you looked inside their brain tissue, they had 
richer connections in their brain cells. And the rats in 
simple, empty cages did not learn the mazes as well, and they 
had less connections in their brain cells.
    But that is not a stimulation experiment. That is a 
deprivation experiment, because a busy, complicated cage for a 
rate is not a complex environment. The complex environment for 
a rat is living in a sewer, the rat's natural environment.
    So Bill Greenow has said that a lot of people took his 
experiments and said now we know how to provide stimulation and 
produce better brains. Wrong. What we learned from that was 
that if you are in a deprived environment, you do not learn as 
well, and your brain does not develop as well. So we have very 
hard science that depriving environments that provide very 
little stimulation and very little opportunity for learning 
result in not only poorer learning ability but result in brains 
that look different, with fewer connections.
    We have a huge amount of research on how poor nutrition 
influences brain development in a negative way, and we have a 
lot of research on how chronic stress influences the 
development of the nervous system and produces the kind of 
short fuse for flying off the handle when you are stressed. 
These results are from animals. They are also not irreversible; 
they can be changed.
    So the brain research, Senator Kennedy, has shown us so 
much about the negative impacts of deprivation on brains. It is 
not a formula for people with a lot of money to go out and 
figure out how to produce super brains. The brain research has 
not told us that at all. But we know a lot about how to prevent 
brains from being hurt. We know a lot about how to optimize 
learning; and yet we are allowing many children in this country 
to spends large parts of every day in environments with very 
little stimulation and very little language exposure. The hard 
science tells us that that is not good for their development, 
it is not good for their brains. It also tell us that if you 
put them in better environments, you can reverse that and they 
can do well.
    The Chairman. Dr. Zigler, did you want to add anything to 
that? I am running out of time, but I would also be interested 
in how you translate that information into either guidance and 
advice to parents or those who are interested in trying to help 
and assist from a policy point of view.
    Mr. Zigler. I will try to do both very quickly, Senator. 
There is only one thing that I would like to add to the very 
fine summation of Dr. Shonkoff. One thing about becoming an old 
codger is that you get to see a wide swatch of history, 
scientific and social. And probably over the last 25 or 30 
years, the most important science--and it really has revealed 
things that we did not know 50 years ago or even 40 years ago; 
it is only about 30 years old, I would guess--is in regard to 
the importance of those very early years, zero to 3.
    I should point out to you that the brain research has 
caused a huge debate--I would refer you to the book, ``The Myth 
of the First Three Years.'' I am finishing a book on early 
childhood learning. Senator Dodd invited me to testify before 
his subcommittee on the implications of that brain development 
work 3 or 4 years ago when it was very hot in Newsweek and Time 
magazines.
    Sitting behind me is a later panelist, Rob Reiner, who has 
done so much to inform the Nation with his TV special and a 
variety of other activities about the importance of these 
years. We really did not know the infant's capacities at all 30 
years ago. The world was supposed to be nothing but a buzzing 
beehive. They are really super learners. I refer you to the 
wonderful book, ``The Scientist in the Crib,'' which is exactly 
what you have in this very young child.
    One of the good things that ``From Neurons to 
Neighborhoods'' did was to put this brain work into 
perspective. I do not agree with every word in it, but most of 
it I do agree with; it is a good summation on balance.
    The first 3 years of life are really very important, and 
one of the things I implore you is that unfortunately, this 
country over the entire course of my life has had a love affair 
with IQs, intelligence, cognitive development, and people 
forget that--when you think of the brain, you immediately think 
of intelligence, cognition--but the brain mediates everything--
emotions, motivation, every aspect of the child.
    Discovering the first 3 years has been a gigantic 
breakthrough. One of the most important implications that you 
yourself are the hero of, Senator Kennedy--following through 
with that information early on, before it was as well-known as 
it is today, and giving the impetus--and many other members of 
this panel helped as well--making Early Head Start in this 
country a reality. There has been no huge Federal program for 
zero to 3 or State program. They are the forgotten years. But 
they are not forgotten any longer. I think that getting in 
there even earlier, as early as possible, with parents, as 
Parents as Teachers and other programs of that sort do, is the 
way to go.
    Let me give you one warning, however. I remember back in 
the 1960's when we were all looking for magic periods. Think 
about Head Start. What is it that we expect? It is a one-year 
program. Unfortunately, people still think in terms of a model 
that we had in the 1960's when we started Head Start, which I 
remind you was a 6- or 8-week program. We were going to change 
kids in 6 or 8 weeks--an impossibility.
    So we have this notion of an inoculation, and my warning to 
you for policymaking and lawmaking is do not fall into that 
magic period crap. Human development is well-known, and the way 
to think about it is that they are all magic periods--zero to 
3, the foundation years, are tremendously important; the 
preschool period following is equally important. This 
continues. Just because you give the child the environmental 
nutrients the child needs from zero to 3 does not mean he is 
home free. You do not tell a parent, ``You will be a terrific 
parent if you are a great parent for the first 3 years of the 
child's life.'' You are a parent, as all parents know, forever; 
and there are different needs forever.
    So the kid goes through a series of stages which Piaget 
told us about--and unfortunately, he too emphasized cognition 
rather than the whole child. But he is right about these 
stages. You can see them with your own eyes. Children need 
certain environmental nutrients at each one of these stages, 
and if we want our children to be all they can be, you have to 
think about childhood certainly for the--your transition 
program was the right way to go. It has got to be done better 
throughout this country. Head Start children have got to be 
followed up in those first 3 years of school with a program. If 
you want those children to be able to read, as this 
administration has championed, by the end of third grade, you 
have to have the kind of insight that Dr. Strickland has 
provided about what is necessary at that period.
    So think of the whole child, not just the brain, as a 
cognitive instrument. Think of each of these levels. Now, the 
things that we really need to work on--and I know you are all 
working on this, or many of you are working on it, because I am 
in discussions with you--is that birth to 5 period, but do not 
become encapsulated in that. Make sure that following the first 
5 years, 3 or 4 years after that; you never give up on a child 
right on through adolescence, because there are still dramatic 
changes.
    So that is the big picture.
    The Chairman. That is very helpful.
    Dr. Strickland, I thank you. My times is expired, and I am 
going to recognize Senator Bond.
    Senator Bond. Mr. Chairman, thank you.
    It is fascinating to hear the discussion of these experts 
and to learn from them all of the things that we are continuing 
to develop. This to me has been, as Dr. Zigler was kind enough 
to say, a long-time area of interest to me. I found out when my 
son was born in 1981 how true it is--the first 3 years of life 
are the greatest learning experience. I learned more in his 
first 3 years than I have learned in the previous 20. It was 
the pioneering work that you and others have done that helped 
us learn with our son.
    Dr. Strickland, I really appreciate what you said about do 
not use baby talk; share complex thoughts with your children. 
It is amazing how fast those little tabula rasas pick it up.
    I do not know whether it was thermo-psychodynamics or 
whatever, but I know there is some really whiz-bang science 
going on that is above the comprehension level of most of us, 
or at least above my level.
    I really think it is important for us as policymakers to 
continue to encourage the scientific exploration, but not to 
overthink it. When you look at all of the science going on, 
there are so many complicated things, but there are some very 
simple points. Early childhood learning is extremely important. 
Half of the child's learning intelligence develops by the age 
of 3. You get it right then, or you have a real problem later 
on. And it is not just education. We sold Parents as Teachers 
in Missouri as a total child welfare program. It even reduces 
child abuse because it teaches parents how to be constructive 
in responding to the frustrations. And if you have a 2-year-old 
who does not frustrate you out of your mind, either you are not 
normal or the kid is not normal. You need to have the guidance 
on how to do it.
    No. 3, parents' involvement is critical involvement. We 
believe--and Sharon Rhodes will talk about it more--that that 
is the secret. If you establish that practice in the early 3 
years, it will continue throughout, and a lot of teachers, 
secondary school teachers and administrators, in Missouri that 
I have talked to say that as far as they are concerned, it is 
not the fact that Parents as Teachers gives children a start at 
the beginning--it is the fact that the parents get sucked into 
taking responsibility for their children's education that makes 
a difference in middle school and even high school years.
    Finally, there is so much knowledge that is being 
developed--you all are learning it; the neuroscience and all 
that great stuff--but every day, our parent educators who go 
out with children in Missouri are finding new ways that come 
from the parents themselves, and it is probably the most 
exciting area--just practical applications of simple things, 
simple games, that can be done. It truly is a developing area.
    I do not have any specific questions for any of you, but if 
any of you have any comments on it, I would be delighted to 
hear them.
    Are there any comments?
    Dr. Zigler?
    Mr. Zigler. You are right, as usual. There are really four 
major determinants. I have come to the conclusion that you can 
take that huge ecological model of my colleague, Yuri 
Bronfenbrenner and reduce it. What are the real determinants in 
determining the growth trajectory of children? There are really 
only four--there are some after that, like the media--but the 
big four to me, in my own investigation of this question, the 
first and by far the most important is the one that you have 
emphasized, Senator Bond, namely, that child's family. So 
working with the family is absolutely critical.
    The second is health care. If the kid is not healthy, 
everything else is moot. If you cannot keep the child alive for 
the first year of life, everything else is moot.
    The third important system is the educational system. And 
again, Senator Kennedy with President Bush has taken the lead 
in the recent Leave No Child Behind bill, and that is the 
system that is at the forefront of domestic policy today--
education. That is the third system.
    But the fourth system and the one that keeps peeking up at 
these hearings, we have never given the importance of its 
merits, and that is child care. That is where most children are 
in their first 5 years of life.
    Let me give you one final thought. For all the years that I 
have been involved with child care, which is a long time, it 
keeps getting defined as a service. It is a service so that 
mothers and fathers can go to work. That is true, but it is not 
the way to look at child care. The way to look at child care is 
that it is an environment. It is an environment that the child 
experiences often for that full 5 years before he hits school, 
and it is the quality of those experiences, the quality of that 
child care, that determines a child's school readiness, which 
in turn influences everything in school after that.
    So those are the big four--the family is by far the most 
important; health; education; and child care.
    Dr. Shonkoff. Senator Bond, I would like to pick up on Dr. 
Zigler's last point and get right to one of the most important 
things you said, which was how much parents learn and what a 
challenge it is in those first few years of life and how, if 
you have a 2-year-old and you are not pushed to the limits, you 
are missing something or there is something wrong with the 
child.
    This is where I think the rubber hits the road in terms of 
what we have to do in bringing this science to practice, 
because we have--and Senator Dodd gave the numbers--almost half 
the kids in this country in their infancy are spending a lot of 
their time in the care of people other than their parents 
during the day. And as you pointed out very eloquently, that is 
a very challenging situation even when you have one child, no 
less being responsible for a whole group of children, and it is 
particularly a challenge if you do not have a lot of 
understanding and education and skills about how to deal with 
young children. That is where the real dangers are in our 
country.
    All families use whatever resources they have to help their 
kids get ahead, and we spend a lot of time talking on both 
sides of the aisle about making sure nobody is left behind. 
Well, there are a lot of children, particularly very young 
children, in child care settings that are really causing them 
to be very much left behind because they are not providing the 
kind of language stimulation, management of their behavior, and 
other things. This is where I think the responsibility that we 
all share is not--I have gotten well beyond talking about 
optimizing development. I do not know what that is. But I do 
know what protecting children is all about, and I do know what 
the minimum requirements are for a decent nurturing and 
learning-promoting environment, and we have too many children 
in environments that are below that level, particularly with 
the very young children where it is most expensive and where 
the shortage is most acute in terms of well-trained people.
    A lot of folks have trouble understanding when we get below 
age 3. A lot of people say, ``I understand education for 4-
year-olds, but I do not understand education for one- or 2-
year-olds.'' And maybe ``education'' is not the right word, but 
certainly learning and development is what is going on. This is 
where we desperately need a shared public commitment of 
resources to make sure that no young child in this country 
spends lots of hours every day in an environment that is 
clearly detrimental to his or her health and well-being.
    Ms. Strickland. May I just add--and this is the final word, 
I hope--often the public seems to think that the people who 
work with young children simply need the minimum amount of 
background and skills, and that as long as they are kind, 
loving, caring people, that is enough.
    Based on what you have heard today and certainly what you 
already knew, this is a very complicated process, working with 
young children, and the knowledge base is strong. Moving 
science to practice is not an easy thing or a trivial thing.
    We need to attract the best and the brightest to work with 
our young children. As a teacher-educator, those are the people 
that I want to see out there with children every day. So we 
need to elevate this whole profession of people who work with 
young children.
    Thank you.
    Senator Bond. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. My own belief, just following on from what 
you said, once we get started with the best and brightest going 
to work with young children, I do not think they will ever give 
it up, because they are going to be able to see the greatest 
impact--a profound impact which they might not be able to get 
when they are teaching at another grade level. I would think 
this would give them enormous satisfaction and enrichment in 
terms of their own lives if we can ever get focused in on 
those. That is at least my hope.
    Senator Jeffords?
    Senator Jeffords. Yes, I think it is time to start talking 
about what we do and where do we get the resources and what 
kinds of resources are necessary.
    To state what all of you know, every other industrialized 
Nation, after the studies of the 1980's and 1990's, made their 
3- and 4-year-olds part of their public school system.
    I have been trying to, and have had some success in getting 
some assistance to families through the Tax Code, but it seems 
to me that if we do not provide the resources for the kind of 
quality that is necessary for these young people, we are just 
not going to make any progress.
    I would note that 40 percent of our fourth-graders cannot 
read at the third grade level. I do not think anybody has done 
a study to determine whether that is the same 40 percent that 
does not get any early learning, but I would imagine there 
would probably be a significant correlation if we did so.
    So my question to you is just for verification. Relative to 
the rest of the world, have other nations had responses which 
have justified making their school systems available to the 3- 
and 4-year-olds? Has that been a positive thing?
    Mr. Zigler. The countries that have gone to that are 
France, Italy, Belgium, and we have their data. The French data 
is available through the French-American Institute that I rely 
on, and they have shown some benefits. They do not even think 
about it. We are still testing. I agree with my colleague, 
Jack--I think that when we put a program in place, we want to 
be accountable, and we have to show its benefits. This has been 
true of Head Start, and it should be true of all of our 
efforts. We only have so much money.
    In those countries, it is so accepted that they cannot 
understand us at all, or why they need data. When I ask them 
where are the outcomes, where is the efficacy data, and so 
forth, they say they cannot think of not doing it because the 
teachers themselves--it is just like in this country--when a 
child has gone to Head Start, we are still arguing whether it 
works or does not work--but kindergarten teachers say they can 
tell that a child has gone to Head Start. So it has become part 
of their culture and their society.
    The same is true in this country, Senator Jeffords, of 
schooling. We do not have to prove that first grade is worth 
doing or sixth grade is worth doing. We have all come to the 
place in our own society where we say of course children have 
to be educated; it is just part of the culture. It is not part 
of our culture, because no matter where you look, whether it is 
leave for women, whether it is family support systems, 
children's allowances are in Canada, in England, in a lot of 
Europe. They support children, they support families. And this 
is not just the liberal social democracies like Denmark and 
Sweden--it is everywhere. The fact is we are the only country 
besides Australia--we once had New Zealand and South Africa, 
but they joined the rest of the world--we are the only 
industrialized country besides Australia that does not have 
paid leave so that when a woman has a baby, she can stay home 
with the child for those first few months.
    There is total agreement that we do not want children in 
child care for those first 6 months, because for all the 
processes of bonding and learning about this child and so on 
that are necessary, the mother must be at home.
    So these other countries are just way ahead of us in terms 
of family support, training, rearing and education of their 
children--even though we are richer than they are.
    Dr. Shonkoff. Another point in response to your question, 
Senator Jeffords, is that aside from the experiences of other 
countries, in this country, we have 40 years' worth of 
longitudinal research on the impact of early childhood 
programs, and although we argue back and forth about the 
significance of how many differences in IQ points and how many 
differences on scores on standardized tests, the one finding 
that comes up over and over and over again in almost every 
longitudinal study we have done is that children who are in 
good-quality preschool programs have less repetition of grades 
in school later on and less need for special education. That is 
what the scientists call the most robust finding we have.
    So we have evidence from many different kinds of studies 
that when children get into good programs early on, regardless 
of what happens on their standardized tests, they need less 
special education, and they repeat grades less in school, and 
that is clearly an indication of what the tradeoff is.
    We just committed to a huge investment in K to 12 education 
in this country. It seems to me that not putting a comparable 
investment up front before kids begin kindergarten is going to 
really jeopardize how much we can expect from that K to 12 
investment.
    Senator Jeffords. You are giving me all the answers I 
wanted, and I have a little trepidation to move forward, but 
going on to Head Start, my understanding is that we have been 
successful in socialization and getting young people to be able 
to communicate and so on, but there is really little 
educational element to the Head Start programs as they exist to 
give us the kind of 3- and 4-year-old education they need. Is 
there any truth to that?
    Mr. Zigler. Senator Jeffords, I have been studying Head 
Start since its inception, and I think I know that data as well 
as anybody. The fact is this thing that I keep hearing, that it 
is a social program, is simply not true.
    The fact of the matter is that if you look at the recent 
FACES data, if you look at the review by Steve Barnett from 
Rutgers and the evidence that Dr. Shonkoff just gave you 
concerning special education and being in the right grade for 
age, Head Start is all of these things. Head Start gets 
children ready for school. We have the FACES data to show that. 
Look at the follow-up. The kids who are not as good as they 
should be when they leave Head Start, when they get to 
kindergarten are prepared; they catch up very, very quickly.
    So I have criticized Head Start when it needs criticism, 
but I think it is getting a bum rap here.
    Now, after having said that, I know that a lot of people 
think I am an advocate for children, but I pride myself on 
being a scientist and on taking the data and trying to utilize 
it in policy construction. So when I look at Head Start, I 
wrote a chapter in the early days of Head Start in which I said 
Head Start is not a program but an evolving process, and it 
should always be an evolving process as we learn new things.
    One of my students, Deborah Stipak, who is dean of the 
school of education at Stanford, has done wonderful work on 
curricula in this eighth period, and she finds Head Start 
somewhat wanting. Her argument--and I think Dr. Strickland said 
it here eloquently--is there more that we can do in Head Start? 
Yes. Do I believe Head Start will do it? Yes, I believe they 
will, because the hallmark of Head Start that we built in from 
the beginning is that as new knowledge is forthcoming, we 
evolve the program so it incorporates our best thinking.
    So it is much too early to say that Head Start does not 
help. It can do better, but I think it is doing a decent job 
today and one that can become better with more attention to the 
literacy and education preparation effort.
    Dr. Shonkoff. If I could just add something to that, one of 
the things that I have learned from economists is that more 
important than what something costs is what value you get for 
your investment; and that sometimes you can invest a little in 
programs and get nothing for them, and it is a waste of money, 
and it may be a little more expensive, but you get much more 
for that.
    Getting back to the issue we talked about of not segmenting 
development into cognition and emotional development, for many 
of these programs--and Head Start will be a good example--we 
have to set them up for realistic expectations based on what it 
is the are prepared to do.
    We had a research roundtable on Head Start at the Board of 
Children, Youth, and Families of the National Academy of 
Sciences that I participated in and that ran over 2 years, and 
one of the things that kept coming up was the problems that 
Head Start deals with that it does not have the resources to 
respond to. And that is where we really get into the issue of 
some of the serious mental health problems and the consequences 
of the violence and substance abuse that Head Start has no 
capacity to deal with and desperately needs assistance in the 
mental health area, for example.
    So what happens is that sometimes you have a program that 
is doing a lot of good things--it is getting good health care, 
it is providing good social services and generically providing 
good educational experiences--but for the kids whose need are 
much beyond that, the resources are not there and the expertise 
is not there, and we see the consequences of kids coming out of 
the program who are not doing well.
    The issue is to match the expertise with the kinds of 
problems people are asked to deal with, and that is where we 
have all this new knowledge and not enough people trained to 
provide it, particularly in the area of kids who are in big 
trouble. Many of these kids are in situations where their 
families cannot advocate for them to get better services, so 
they are the failures.
    Senator Jeffords. Thank you.
    I know my time is up, but may we have the right to ask 
additional questions by mail or whatever?
    The Chairman. Absolutely, absolutely.
    As I mentioned, this panel and our second panel will be 
working through the afternoon with our staffs and other members 
of the Senate staff as well who have indicated an interest, 
which will be very, very helpful to us, and other members of 
the Senate staff as well who have indicted an interest. So we 
are going to be drawing on them continuously, and we are very 
grateful to them.
    [The prepared statement of Senator Jeffords follows:]

                 Prepared Statement of Senator Jeffords

    Thank you Mr. Chairman. Recent Administration estimates 
reveal that up to 75% of children under the age of 5 in this 
country are in out-of-home child care arrangements. And, as 
more mothers of young children enter the workforce, we need a 
system that links the children in child care to affordable, 
accessible, high-quality early care and education.
    The evidence overwhelmingly demonstrates that the quality 
of early child care and education has a significant effect on 
children's health and development and their readiness for 
school. Quality early care and education: improves the academic 
success and educational attainment of children; lowers 
placement rates for children in special education; lowers 
dropout rates; and improves attendance at 4-year colleges.
    Benefits of quality early care and education not only 
accrue to the child and the family, but to society as well. 
Studies reveal that quality early care and education: reduces 
crime; reduces substance abuse and drug related offenses; and 
increases work productivity, as parents have fewer child-care-
related absences from work.
    Shortly after these studies came out, all industrialized 
nations, but unfortunately not the United States, made the 
education of toddlers and pre-schoolers a mandatory part of 
their public education system, and paid for it.
    Quality child care is available in the United States to 
young parents, but in many cases, it costs more than ten 
thousand dollars per year. This is almost twice the cost of 
going to many public colleges. And unfortunately, too many 
child care facilities in this country have inadequate 
educational components.
    Currently, families must work through a maze of programs 
and an array of funding streams to learn about or gain access 
to quality early care and education programs. And, what we 
don't need is another narrowly tailored program which only 
addresses the needs of a few and only provides few dollars.
    What we need is a seamless system of education: a system 
that lays the foundation upon which all of our children can 
learn. In particular, we need a high-quality, school readiness 
component that: connects our children in child care with high-
quality early care and education; adequately trains, 
compensates, recruits, and retains early childhood teachers and 
providers; and links early care and education to existing 
programs, such as the Child Care Development Block Grant, TANF, 
IDEA, ESEA, Higher Ed, and other various early care and 
education programs.
    The Federal government also needs to recognize what the 
science has already proven: that starting from birth, children 
rapidly develop the foundation for learning, or as our esteemed 
panelist Dr. Shonkoff calls, ``an indelible blueprint'' for 
learning; and that early child development can be seriously 
compromised by physical, social, and emotional impairments.
    Therefore, we need to support our youngest children, 
particularly those children ages zero through three, where 
positive physical, social, and emotional development is crucial 
to school readiness.
    We have the best researchers and institutions of higher 
learning in the world, and we need to help our states and local 
communities connect with the experts so that parents, 
providers, and teachers have the best tools available to 
address the very special needs of these youngest children.
    We also need to make high-quality early care and education 
more affordable to all working families. Therefore, I intend to 
offer parents a refundable tax credit for the costs of 
attending high-quality, accredited care. This tax credit will 
not only provide working families with the opportunity to place 
their children in higher quality care, but would provide 
incentive to providers to seek accreditation, and thus raise 
the standards for care.
    I am pleased that the President in his State of the Union 
Address stated that early education is a priority, but I 
challenge him to work with those of us in Congress who have 
been working on these issues for decades to develop a 
comprehensive school readiness system, and to support a school 
readiness system with enough resources to actually make it 
work. We all must recognize that the foundation for learning 
begins in the earliest years of life, and that a failure to 
nurture development in these earliest years is a lost 
opportunity forever.
    I want to thank our panelists for coming today, and the 
Chairman for convening this hearing and shining the spotlight 
on this vital concern.
    The Chairman. Senator Murray?
    Senator Murray. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing, and thank you for an excellent 
discussion on the critical issues that we face in early 
childhood education.
    Before I came to the Senate, I was a parent educator and a 
preschool teacher, and I know first-hand the difference it 
makes in a classroom. I can pick those kids out who are going 
to be successful or not, and it often has to do with the parent 
and what the family is doing as well.
    One of the concerns I have is that we so often think of 
early childhood education--and you kind of addressed this, Dr. 
Shonkoff--as teaching the kid the alphabet, and if you can, he 
is successful; if you cannot, kick him out--which is a 
horrendous approach to early childhood education. It is so much 
more than just learning basic skills. Definitely, early reading 
is critical. But I had children in my classroom who could never 
learn the letter ``A'' because they were more worried about 
whether their dad was going to beat up their mom. I had kids 
who had chronic ear infections who never went to the doctor 
because they had no health care. How do you teach them the 
sound of ``A''?
    So it is the whole child that we have to deal with, and I 
am concerned when I see the President's budget with a less than 
inflationary increase for Head Start, because I know that 
unless you work with the Head Start teachers and have them 
recognize these things and be trained to do what we need them 
to do, it is not going to pan out for the kids. And I know that 
you need parents who are capable of recognizing these issues as 
well. We all have to work together, and I think that 
shortchanging the Head Start budget or saying that it fails if 
we do not teach every kid the alphabet before the age of 3 is 
really a wrongheaded approach.
    If you want to comment on that, I would be glad to hear 
from you.
    Dr. Shonkoff. I completely agree with you. I think the 
issue here is to set programs up for success and figure out 
what it takes and recognize that this is one a one-size-fits-
all model.
    We politicize the accountability issue and the evaluation 
issue in a way that is holding this field back, because for so 
long, what evaluation meant was should we invest in early 
childhood or not. If we could change that political context to 
say that we are going to do evaluation to answer the question 
of whether it is worth investing, but to figure out how to get 
the best value for our investments, then we can focus 
evaluations on what is working and also focus on what is not 
working and figure out how we can learn from that and do things 
differently.
    That really requires a change in the political environment 
around early childhood. Maybe we are almost there; it would be 
great to be there, because we are far beyond the point where we 
should asking does any of this matter, or do these early years 
really matter. So I really appreciate your comments.
    Senator Murray. Ms. Strickland?
    Ms. Strickland. So often when we talk about early childhood 
education, and we focus on early literacy, we reduce early 
literacy to learning the alphabet or learning the sounds that 
letters represent. I think that that has brought a lot of 
resistance on the part of early childhood people who worry a 
great deal about ``skill drill'' kinds of efforts in early 
childhood--and they are right to worry about that.
    We need to broaden the conversation and broaden the scope 
of what we mean when we talk about early literacy. We are 
talking a great deal about knowledge about the world, content; 
we are talking about language development, concept development. 
Yes, print is a very important part of this, because you are 
not going to learn how to read without significant print in the 
environment and experiences with print. But if we could just 
broaden that range of understanding about what is meant by 
``early childhood literacy,'' I think that would help to bridge 
what I see is kind of a contentious atmosphere right now around 
these issues. People worry for good reason about subjecting 
children to experiences that really could be harmful and 
certainly would not enhance their cognitive development.
    Senator Murray. Dr. Zigler, I appreciated your comments 
about women staying home with their young children. I think 
that in the push to reform welfare, we have sent an unfortunate 
message that staying at home with your kids is not contributing 
to our society in a good way. I worried very much as we did the 
1996 welfare reform law about the work requirements imposed on 
parents and essentially saying to them that unless you are 
working, you are not a participant in our society. I agree with 
you that being home with your child is one of the most 
important things we can do. Now, obviously, there are a lot of 
people who cannot be home with their children, but I appreciate 
your work on family and medical leave to help more people do 
that. I would love to see a point where we were as good as some 
of our European allies in really promoting moms' and dads' 
ability to play a larger role in their children's lives when 
they are young, but I think we are a long way from changing 
that at this point. But I do think we have to send better 
messages about valuing parents who stay home.
    Mr. Zigler. Senator Murray, to go back to the remarks that 
you made earlier, I agree with every, single one of them. I was 
not familiar with your own background, unfortunately, but it is 
clear to me now that the Senate is indeed fortunate to have 
somebody with your particular experiences, because you have 
lived what scientists like us study, and you bring a wisdom to 
these issues that I think your colleagues can utilize. So I 
appreciate that a great deal.
    Senator Murray. Thank you very much.
    I look forward to working with all of you and with you, Mr. 
Chairman, as we move forward and make sure that every child is 
able to learn.
    Thank you.
    The Chairman. I thank our panelists very much for your 
enormously helpful testimony and comments. We are very grateful 
for your continuing help to this committee.
    I will introduce our next panel, and then we are going to 
have a recess. We have three votes, one of which is underway, 
and then we will reconvene in about half an hour.
    I will introduce the panel now. We welcome Rob Reiner from 
California, who is the founder of the I Am Your Child 
Foundation, an advocacy group for children ages zero to 3. Mr. 
Reiner chairs the California Children and Families State 
Commission. I am grateful for his commitment to children and 
look forward to hearing about the innovative approaches 
California is taking to address the early learning needs of 
young children. Rob has been a good personal friend and a 
friend, I know, to a number of us on this committee.
    Elisabeth Schaefer is Administrator for Early Learning 
Services with the Massachusetts Department of Education. She 
supervises the distribution of early childhood funds to public 
schools, Head Start, private child care, and preschool 
programs. We welcome her and look forward to hearing her 
testimony.
    We also welcome Susan Russell, who is regarded as the 
primary architect of the North Carolina T.E.A.C.H. Program and 
the Child Care Wages Project, two of the premier components of 
the North Carolina Smart Start Program begun under then 
Governor Jim Hunt. Dr. Russell is currently executive director 
of child care services. We applaud her innovation in the 
development of the T.E.A.C.H. Early Childhood Program, which is 
a model program that offers scholarships for the training and 
development of early education providers.
    Sharon Rhodes is Director of Program Development and 
Evaluation for the Parents as Teachers National Center in St. 
Louis, MO. Ms. Rhodes has been a major developer of the Parents 
as Teachers onsite technical assistance system and is currently 
directing the development of program standards to promote 
quality programming. Ms. Rhodes is working closely with 
neuroscientists from Washington University in St. Louis and 
coordinated the development of the Parents as Teachers ``Born 
to Learn'' neuroscience-enhanced curriculum.
    We thank all of you very much for being here and for your 
help to our committee. When we reconvene, the committee will 
hear from all of you.
    I am enormously grateful that we had on the earlier panel 
the science, which is so compelling and overwhelming; we have 
on this panel those who have been working at the State level 
and have been very much on the front lines of what is working 
out there. They will give us the benefit of their judgment as 
to what is working out there in the local communities and make 
recommendations to us as to what role we might be able to play 
to help in advancing the efforts which they have been nobly 
leading in our country.
    Important progress has been made in a lot of other States--
Ohio has had initiatives; Kentucky is moving along; I 
understand Oklahoma has a program--the list goes on. So we are 
interested, and we are drawing from all of these experiences in 
the States and talking with the legislators who have worked on 
those programs in the States as well to benefit from their 
experience, because they have a wealth of experience to help 
our committee. I am grateful for their willingness as well to 
help in the course of this afternoon.
    Now the committee will be in recess, and Senator Bond will 
chair in about half an hour.
    [Recess.]
    Senator Bond. [presiding]. Ladies and gentlemen, if you 
could take your seats, we will ask the members of the second 
panel to come forward.
    Again, on behalf of my colleagues, I offer sincere 
apologies to the second panel. This is a tremendously important 
panel, and as usual, the Senate vote schedule has messed us up. 
This is the Senate corollary to Murphy's law--if it is possible 
for a Senate schedule to mess up important things, it will 
happen, there is no question about that.
    But the good news is that there is enough interest in this, 
and I think staff will be here and will be meeting with you 
later this afternoon--and do not tell anybody, but the real 
secret is that they are the ones who make things move around 
here anyhow. But Senator Kennedy and I and others will do our 
best to make sure that we keep our colleagues fully informed.
    I will invite Rob Reiner to offer his testimony now, and 
let me assure all witnesses that your full statements will be 
made a matter of record, and we would ask that you make your 
opening statements in 5 minutes. Depending on whether other 
colleagues are able to go on, we will be able to go for about 
45 minutes prior to the policy conference meeting.
    With that, Rob, welcome.

STATEMENTS OF ROB REINER, FOUNDER, I AM YOUR CHILD FOUNDATION, 
    HOLLYWOOD, CA; ELISABETH SCHAEFER, ADMINISTRATOR, EARLY 
   LEARNING SERVICES, MASSACHUSETTS DEPARTMENT OF EDUCATION, 
 MALDEN, MA; SUSAN D. RUSSELL, EXECUTIVE DIRECTOR, CHILD CARE 
 SERVICES, UNIVERSITY OF NORTH CAROLINA CHAPEL HILL, RALEIGH, 
   NC; AND SHARON RHODES, DIRECTOR, PROGRAM DEVELOPMENT AND 
 EVALUATION, PARENTS AS TEACHERS NATIONAL CENTER, ST. LOUIS, MO

    Mr. Reiner. Thank you, Mr. Chairman.
    I am honored to be here this morning to describe the 
progress we have made in promoting school readiness in 
California and to reflect on the lessons learned there and in 
other States.
    Today I will make the case that Congress has an historic 
opportunity to do the right thing for children by investing 
wisely in the most neglected period of life--the critical years 
from the prenatal stage to school entry.
    As our Nation focuses with a new sense of urgency on 
education reform, it is time that we acknowledge and act upon 
one simple truth. If we truly want to improve our students' 
school performance, we must change the educational structure in 
America. We must build a seamless education system that begins 
before birth and ends at 12th grade.
    Let me begin with a little background on how I became so 
passionate about this issue. In 1997, after conducting my own 
extensive research with scholars, business leaders, Government 
officials and philanthropists, I founded the I Am Your Child 
Foundation, a national, nonprofit, nonpartisan organization 
dedicated to focusing national attention on the urgent need for 
quality early childhood development programs. In collaboration 
with hundreds of national, State and local groups, we launched 
the I Am Your Child Campaign to promote broader public 
awareness of and investment in the early years.
    The following year, in my home State of California, I 
authored Proposition 10, the California Children and Families 
Act, to build a comprehensive system of early childhood 
development for our State's youngest children. Over the last 5 
years, I have traveled across America, working with the Federal 
and State leaders on similar efforts in other States. Working 
together, we have accomplished a great deal in these last 5 
years, forging strong bipartisan support, identifying some new 
resources, strengthening programs, and measuring results.
    But we still have a very long way to go. Today we stand 
ready to enter a new phase that should redefine the national 
debate on education reform.
    I listened with great interest to the First Lady's 
testimony before this committee last month and to the 
President's comments during his State of the Union Address 
about the need to enhance preschool programs and teacher 
training to achieve real progress in early literacy. I could 
not agree more.
    I have also spoken with Senator Kennedy about his early 
education proposal to improve the quality of early learning 
programs and to build a more coherent, comprehensive system. I 
also could not agree more. We have an unprecedented 
opportunity, starting today, to work together to bring about 
real change, to build a continuum of care for our Nation's 
youngest children, and to enact meaningful education reform 
that reflects a true understanding of how our children learn.
    In the last few years, science has confirmed what many 
parents, teachers, and caregivers have instinctively known--
experiences in the early years have a profound effect on the 
way children learn, grow, and develop. These early experiences 
establish the foundation for children's future success in 
school, in the work force, and in life. Researchers have 
demonstrated that secure and loving attachments and the right 
kind of developmental experiences instill in children the 
social, emotional, and cognitive abilities they need.
    Unfortunately, while the research and good common sense 
dictate that public support for the early years is critical to 
school readiness, this is simply not where we are making our 
public investments.
    Today, America's system of early childhood education 
represents a haphazard, underfunded, incoherent approach that 
does not meet the needs of this vast majority of our Nation's 
youngest children.
    Congress recently enacted extremely important education 
reform legislation that will make a difference in establishing 
strong standards, promoting quality teaching, and expanding the 
resources devoted to low-performing schools. However, although 
this is much-needed legislation that will strengthen our 
schools, it did not go far enough.
    Our current K through 12 elementary and secondary education 
system, designed over 100 years ago, is outdated and 
incomplete. Based on what science has shown us about how a 
child develops and learns, any educational reform that begins 
at kindergarten is simply too late. We must include early care 
and education as part of an overall education system so that 
every child has the tools that he or she needs to start school 
ready to succeed. Quite simply, the key to educational 
performance begins with healthy development before birth and 
continues with quality early care and education beginning the 
day a child is born. These early opportunities must not be left 
to chance. They must be embedded into our health care, social 
services, and education systems.
    Only if we focus on healthy development, early learning, 
and safe and nurturing environments can all of our children 
realize their full potential. The absence of these essential 
building blocks can be devastating. Consider what we know. We 
know that low-birth-weight, pre-term infants are especially at 
risk for poor health and developmental delays.
    We know that the roots of academic difficulty are often 
established well before a child's first day of school. It is a 
national disgrace that about one-third of the Nation's 
kindergartners are not ready to learn as judged by the real 
experts--their teachers.
    We know that children who fall behind before entering 
school have a far more difficult time catching up.
    We know that children who live with family and community 
violence in their early years suffer a multitude of damaging 
consequences that can last a lifetime and make learning all the 
more difficult.
    Fortunately, we also know what works to help kids start 
school ready to succeed. Programs whose principles are 
consistent with what we know about health development and early 
learning have proven to be extraordinarily effective. 
Appropriate prenatal care is an early learning program for two 
generations; it helps expectant mothers deliver healthy 
children. Well-designed home visiting programs for parents and 
their infants can help improve birth weights and reduce 
premature delivery and child abuse.
    Effective parenting programs can help parents promote 
children's learning and social skills. High-quality child care 
and preschool programs can reduce the need for special 
education, improve children's language and math skills in 
elementary school, and generate lasting benefits that produce 
significant cost savings in special education, welfare, and 
crime.
    What we have learned in the past two decades about how 
young children learn and develop is truly extraordinary. The 
science is right on the money, but unfortunately, the money is 
not on the science. The gap is simply too large between what we 
know and what we do.
    In California, we are building an innovative Statewide 
system that I believe will serve as a model for this Nation. In 
November of 1998, California voters passed Proposition 10, 
which dedicates approximately $650 million a year toward 
building a comprehensive early childhood development system. 
The initiative created the California Children and Families 
Commission, the Statewide leadership agency which I am proud to 
chair that oversees its implementation. The initiative also 
created 58 local commissions to provide the local guidance and 
decisionmaking on how the funding is directed in each county.
    In a State as vast and diverse as California, this 
structure enables each local community to determine the best 
possible use of funds for its own children and families.
    Although the initiative provides local control from our 
urban centers to our rural outreaches, there is one overarching 
guiding principle of Proposition 10--to create a coherent, 
comprehensive school readiness system to ensure that every 
child is ready to succeed from the first day of kindergarten.
    Our commissions have spent the last 2 years designing and 
building these programs. This year, we will see the launch of 
school readiness centers throughout California, focusing first 
on raising achievement in our lowest-performing schools. Our 
school readiness centers, which are required to partner with 
neighboring schools, will open their doors on or near 
elementary school campuses across the State to provide every 
family access to prenatal care, quality child care, and 
preschool education, parent education, health care, and early 
literacy programs at one easy-to-access site.
    We realized early on with Proposition 10 that many programs 
for young children throughout California are needed to meet the 
demands of the Nation's most populous State. And although the 
initiative has raised hundreds of millions of dollars, our 
funding is insufficient to address every early childhood issue 
in our State. However, what our new revenue can do is help 
create a unifying system, a system that links existing services 
like Head Start, Early Head Start, and Healthy Families to new 
programs offering parent education and child care--and embed 
all these family services into our existing education system.
    Instead of using Proposition 10 to fund a series of 
programs in their own ``silos,'' our goal is to glue our 
programs together so that families can have access to 
convenient and affordable supports to help their children grow, 
learn, and succeed.
    Our State's diverse families are responding 
enthusiastically. As part of our parenting education component 
for school readiness, last November we launched a ``Kit for New 
Parents,'' designed to serve as a parents' ``instruction 
manual,'' which includes educational videos on early bonding 
and attachment, health and nutrition, child care, early 
literacy, discipline and safety, as well as a ``Parent Guide'' 
listing available services in each community for parents of 
newborns.
    In the first 2 months, we have distributed more than 55,000 
kids. Also, as part of our overall school readiness efforts, 
thousands of families have benefited from our mobile vans that 
bring books to underserved neighborhoods and from home 
visitation programs that bring public health nurses to support 
and teach new mothers. We also have funded programs that 
address retention and compensation of child care providers as 
well as training programs that help child care providers become 
better teachers.
    I am sorry--I will conclude in 1 minute.
    With our school readiness centers, we are going to make 
early childhood services an integrated part of our elementary 
schools and create one system of education for our children. 
Our ultimate goal in California is to stop funding K through 12 
and early childhood as two separate and distinct systems, and 
instead merge them into one seamless educational path for 
children.
    Recently, the California legislature charged Proposition 10 
with developing the school readiness component of the State's 
overall master plan for education. Never before had the State's 
education planning framework even included an early childhood 
component. We are not merely writing a separate chapter on 
early learning but creating, as I have said, a seamless 
education system from the prenatal period to 12th grade.
    Of course, California is not alone. Massachusetts, Georgia, 
North Carolina, Ohio, Connecticut, and New York among others 
are beginning to piece together coherent, comprehensive systems 
guided by science to benefit our youngest children.
    But the truth is there is much, much more to be done. In an 
era of grave State budget challenges, the Federal Government 
must invest more and must focus funding where help is needed 
most. Quite simply, every child in America deserves the same 
chance to succeed, and well-placed Federal dollars in the early 
years are the only means to ensure that every child gets that 
chance.
    Every State including California is heavily dependent on 
Federal initiatives. From Head Start, the SCHIP program, 
Medicaid, the Child Care Development Block Grants, and Family 
and Medical Leave, our early childhood development programs are 
largely built on a Federal foundation. Congress must keep these 
programs strong, especially now, as States face large deficits.
    But Congress must do more. Federal legislation should 
provide incentives to the States to bring quality early 
childhood services into the education system and to develop and 
expand our best programs to best serve our children.
    As our Nation focuses on how to improve our education 
system to better service our children and to ensure long-term 
competitiveness as a Nation, we need to advance a bold new 
approach. I congratulate the committee for the courage to 
change the nature of the debate, and I issue this challenge. 
Any new Federal education initiative must be guided by one 
essential question: Will it address a robust, comprehensive 
vision of how children learn?
    Early childhood development is the key to improving 
America's schools and to the long-term strength of our Nation. 
The science has told us in no uncertain terms that the early 
years of a child's life will set the trajectory of school 
performance and life performance.
    We should stop talking about tinkering with K through 12 
and start rebuilding the framework for P through 12, from the 
prenatal period to high school graduation.
    Senator Bond. Thank you, Rob. I have got to give the other 
three panelists an opportunity to talk----
    Mr. Reiner. You got the point.
    Senator Bond. Amen to what you said. I appreciate it. I am 
sorry that we are running out of time, and I do want to give 
the other three witnesses an opportunity to testify, and 
unfortunately, I agree with everything you said.
    Mr. Reiner. Thank you.
    [The prepared statement of Mr. Reiner follows:]

                    Prepared Statement of Rob Reiner
    Thank you Mr. Chairman and members of the Committee. I am honored 
to be here this morning to describe the progress we have made in 
promoting school readiness in California and to reflect on the lessons 
learned there and in other states. Today, I will make the case that 
Congress has an historic opportunity to do the right thing for children 
by investing wisely in the most neglected period of life: the critical 
years from the prenatal stage to school-entry. As our nation focuses 
with a new sense of urgency on education reform, it is time we 
acknowledge and act upon one simple truth. If we truly want to improve 
our student's school performance, we must change the educational 
structure in America. We must build a seamless education system that 
begins before birth and ends at 12th grade.
    Let me begin with a little background on how I became so passionate 
about this issue. In 1997, after conducting my own extensive research 
with scholars, business leaders, government officials, and 
philanthropists, I founded the I Am Your Child Foundation, a national, 
non-profit, non-partisan organization dedicated to focusing national 
attention on the urgent need for quality early childhood development 
programs. In collaboration with hundreds of national, state, and local 
groups, we launched the I Am Your Child Campaign to promote broader 
public awareness of, and investment in, the early years. The following 
year, in my home state of California, I authored Proposition 10, the 
California Children and Families Act, to build a comprehensive system 
of early childhood development for our state's youngest children. Over 
the last five years, I have traveled across America working with 
federal and state leaders on similar efforts in other states. Working 
together, we have accomplished a great deal in these last five years--
forging strong bipartisan support, identifying some new resources, 
strengthening programs, and measuring results. But we still have a very 
long way to go. Today we stand ready to enter a new phase that should 
redefine the national debate on education reform.
    I listened with great interest to the First Lady's testimony before 
this Committee last month, and to the President's comments during his 
State of the Union address, about the need to enhance preschool 
programs and teacher training to achieve real progress in early 
literacy. I could not agree more. I have also spoken with Senator 
Kennedy about his early education proposal to improve the quality of 
early learning programs and to build a more coherent, comprehensive 
system. I also could not agree more. We have an unprecedented 
opportunity--starting today--to work together to bring about real 
change, to build a continuum of care for our nation's youngest 
citizens, and to enact meaningful education reform that reflects a true 
understanding of how our children learn.
    In the last few years, science has confirmed what many parents, 
teachers, and caregivers have known instinctively: experiences in the 
earliest years have a profound effect on the way children learn, grow, 
and develop. These early experiences establish the foundation for 
children's future success in school, in the work force, and in life. 
Researchers have demonstrated that secure and loving attachments and 
the right kind of developmental experiences instill in children the 
social, emotional, and cognitive abilities they need. Unfortunately, 
while research and good common sense dictate that public support for 
the early years is critical to school readiness, this is simply not 
where we are making our public investments. Today, America's system of 
early childhood education represents a haphazard, under-funded, 
incoherent approach that does not meet the needs of the vast majority 
of our nation's youngest children.
    Congress recently enacted extremely important education reform 
legislation that will make a difference in establishing strong 
standards, promoting quality teaching, and expanding the resources 
devoted to low-performing schools. However, although this is much 
needed legislation that will strengthen our schools, it did not go far 
enough. Our current K-12 elementary and secondary education system, 
designed over 100 years ago, is outdated and incomplete. Based on what 
science has shown us about how a child develops and learns, any 
educational reform that begins at kindergarten is simply too late.
    We must include early care and education as part of an overall 
education system so that every child has the tools he or she needs to 
start school ready to succeed. Quite simply, the key to educational 
performance begins with healthy development before birth and continues 
with quality early care and education beginning the day a child is 
born. These early opportunities must not be left to chance; they must 
be embedded into our health care, social services and education 
systems. Only if we focus on healthy development, early learning, and 
safe and nurturing environments can all our children realize their full 
potential.
    The absence of these essential building blocks can be devastating. 
Consider what we know: We know that low birth-weight, preterm infants 
are especially at risk for poor health and developmental delays. We 
know that the roots of academic difficulty are often established well 
before a child's first day of school. It is a national disgrace that 
about one-third of the nation's kindergartners are not ready to learn, 
as judged by the real experts, their teachers. We know that children 
who fall behind before entering school have a far more difficult time 
catching up. We know that children who live with family and community 
violence in their early years suffer a multitude of damaging 
consequences that can last a lifetime and make learning all the more 
difficult.
    Fortunately, we also know what works to help kids start school 
ready to succeed. Programs whose principles are consistent with what we 
know about healthy development and early learning have proven to be 
extraordinarily effective. Appropriate prenatal care is an early 
learning program for two generations: it helps expectant mothers 
deliver healthy children. Well-designed home visiting programs for 
parents and their infants can help improve birth-weights and reduce 
premature delivery and child abuse. Effective parenting programs can 
help parents promote children's learning and social skills. High 
quality child care and preschool programs can reduce the need for 
special education, improve children's language and math skills in 
elementary school, and generate lasting benefits that produce 
significant cost savings in special education, welfare, and crime.
    What we have learned in the past two decades about how young 
children learn and develop is truly extraordinary. The science is right 
on the money, but unfortunately the money is not on the science. The 
gap is simply too large between what we know and what we do.
    In California, we are building an innovative statewide system that 
I believe will serve as a model for the nation. In November 1998, 
California voters passed Proposition 10, which dedicates approximately 
$650 million a year toward building a comprehensive early childhood 
development system. The initiative created the California Children and 
Families Commission, the statewide leadership agency, which I am proud 
to chair, that oversees its implementation. The initiative also created 
58 local commissions to provide the local guidance and decision-making 
on how the funding is directed in each county. In a state as vast and 
diverse as California, this structure enables each local community to 
determine the best possible use of funds for its own children and 
families.
    Although the initiative provides local control, from our urban 
centers to our rural outreaches there is one overarching guiding 
principle of Proposition 10: to create a coherent, comprehensive school 
readiness system to ensure that every child is ready to succeed from 
the first day of kindergarten. Our commissions have spent the last two 
years designing and building these programs. This year we will see the 
launch of school readiness centers across California, focusing first on 
raising achievement in our lowest performing schools. Our school 
readiness centers, which are required to partner with neighboring 
schools, will open their doors on or near elementary school campuses 
across our state to provide every family access to pre-natal care, 
quality child care and preschool education, parent education, health 
care and early literacy programs at one easy-to-access site.
    We realized early on with Proposition 10 that many programs for 
young children throughout California are needed to meet the demands of 
the nation's most populous state. And, although the initiative has 
raised hundreds of millions of dollars, our funding is insufficient to 
address every early childhood issue in our state. However, what our new 
revenue can do is help create a unifying system--a system that links 
existing services like Head Start, Early Head Start and Healthy 
Families to new programs offering parent education and child care--and 
embed all these family services into our existing education system. 
Instead of using Proposition 10 to fund a series of programs in their 
own ``silos,'' our goal is to glue our programs together so that 
families can have access to convenient and affordable supports to help 
their children learn, grow, and succeed.
    And our state's diverse families are responding enthusiastically. 
As part of our parenting education component for school readiness, last 
November we launched a Kit for New Parents, designed to serve as a 
``parents' instruction manual,'' which includes educational videos on 
early bonding and attachment, health and nutrition, child care, early 
literacy, discipline, and safety, as well as a ``Parent Guide'' listing 
available services in each community for parents of newborns. In the 
first two months alone we have distributed more than 55,000 kits. Also, 
as part of our overall school readiness efforts, thousands of families 
have benefited from our mobile vans that bring books to underserved 
neighborhoods and from home visitation programs that bring public 
health nurses to support and teach new mothers. We also have funded 
programs that address retention and compensation of child care 
providers, as well as training programs that help child care providers 
become better teachers.
    With our school readiness centers we are going to make early 
childhood services an integrated part of our elementary schools and 
create one system of education for our children. Our ultimate goal in 
California is to stop funding K-12 and early childhood as two separate 
and distinct systems, and instead merge them into one seamless 
educational path for children. Recently the California Legislature 
charged Proposition 10 with developing the school readiness component 
of the state's overall Master Plan for Education. Never before had the 
state's education planning framework even included an early childhood 
component. We are not merely writing a separate chapter on early 
learning, but creating, as I have said, a seamless education system 
from the prenatal period to 12th grade.
    Of course, California is not alone. Massachusetts, Georgia, North 
Carolina, Ohio, Connecticut, and New York, among others, are beginning 
to piece together coherent, comprehensive systems, guided by science, 
to benefit our youngest children. But the truth is there is still so 
much more to be done. In an era of grave state budget challenges, the 
federal government must invest more and must focus funding where help 
is needed most. Quite simply, every child in America deserves the same 
chance to succeed, and well-placed federal dollars in the early years 
are the only means to ensure that every child gets that chance.
    Every state, including California, is heavily dependent on federal 
initiatives. From Head Start and SCHIP, to Medicaid, the Child Care 
Block Grants and Family and Medical Leave, our early childhood 
development programs are largely built on a federal foundation. 
Congress must keep these programs strong, especially now as states face 
large deficits. But Congress must do more. Federal legislation should 
provide incentives to the states to bring quality early childhood 
services into the education system and to develop and expand our best 
programs to best serve our children.
    As our nation focuses on how to improve our education system to 
better serve our children, and to ensure our long-term competitiveness 
as a nation, we need to advance a bold new approach. I congratulate the 
Committee for the courage to change the nature of the debate and I 
issue this challenge: any new federal early education initiative must 
be guided by one essential question: will it address a robust, 
comprehensive vision of how children learn? Early childhood development 
is the key to improving America's schools and to the long-term strength 
of our nation. The science has told us, in no uncertain terms, that the 
early years of a child's life will set the trajectory of school 
performance and life performance. We should stop talking about 
tinkering with K-12 and start rebuilding the framework for P-12, from 
the prenatal period to high school graduation. We must have the courage 
as a society to close the gap between what we know and what we do. 
Thank you for inviting me to join you today.

    Mr. Reiner. Ms. Schaefer?
    Ms. Schaefer. Mr. Chairman and members of the committee, I 
am pleased to be here today to talk with you about ways in 
which we can take what is known about children's development 
and use this information as the basis for practice.
    In this report, I am going to address two major points. I 
am going to describe four initiatives that have made a 
difference, and then I am going to demonstrate the need for 
continued support.
    First, building on State initiatives and eliminating 
separate education for children with special needs. Come back 
in time with me to a time 15 years ago. You probably know of a 
situation like this from your personal experience. Four-year-
old Rose was diagnosed with autism. Her parents had concerns 
about her social development but were not prepared for this 
diagnosis. The only alternative offered by the school system 
for Rose was a substantially separate classroom for children 
with autism. Intuitively, the parents knew that this was not 
the right program for Rose, but because few options were 
available and services were fragmented, the parents took the 
recommended program. They looked at child care and Head Start 
programs but could not find one that had the need supports that 
they could add to their programs.
    Things are very different now. We do not have many 
substantially separate programs for children with disabilities 
in Massachusetts anymore. Most preschool children with 
disabilities receive services in inclusive programs today 
because of the integration of early childhood special education 
programs with the State pre-kindergarten programs.
    This was a very important initiative and has made a great 
difference in the lives of young children. This initiative led 
to improved teacher training, flexible funding to support 
inclusion, and the availability of services to children with 
disabilities in child care programs. The availability of these 
services in the community can make a significant difference for 
a young child like Rose.
    Second is the need for the development of a system of early 
care and education. The success of our efforts in joining early 
childhood and early childhood special education led us to 
wonder about the potential of further collaboration. Our State 
Early Childhood Advisory Council studied the potential of a 
collaborative model and found that local early childhood 
councils could be effective in planning across public and 
private programs if they were allowed the flexibility to 
function based on different community resources and needs.
    As a result of the focus on collaboration, Community 
Partnerships for Children were first funded in 1993 at a $6 
million level. The strength of this community involvement is 
evident in the accomplishments of the Community Partnership 
program during the next 8 years. Current funding is now at 
$96.6 million, and the program serves 22,450 children.
    In addition to providing access and affordability to early 
care and education programs, the Community Partnership 
Initiative also improved and supported program quality through 
accreditation and professional development. One of the 
significant outcomes of the program has been the large increase 
in the number of Massachusetts programs accredited by the 
National Association for the Education of Young Children from 
66 programs in 1993 to 806 programs today. In addition, of the 
1,500 family child care providers that participate in the 
Community Partnership program, 608 are either accredited by the 
National Association of Family Child Care or have a child 
development associate credential or an associate's or 
bachelor's degree in early childhood education. The program has 
also supported the pooling of funds to provide training 
resources and to fund college courses for teachers.
    Community Partnerships has also supported families through 
parent/child literacy activities and adult education classes 
for parents to support them in getting their high school 
diploma. In several instances, programs have added a mental 
health component, because children were being expelled from 
early childhood programs due to behavioral problems. Mental 
health services allow children to stay in their child care 
program while solutions are identified and implemented.
    Imagine what it would be like to have a 3-year-old with so 
much anger that he gets expelled from an early childhood 
program. Imagine--and you do not have to go very far in your 
imagination, because this is happening all around us. And then 
imagine what it would be like for that child to be able to stay 
in preschool and have mental health services implemented in the 
program and then go on to have a successful kindergarten 
experience. There have been many cases like this.
    What made this program work for that angry 3-year-old who 
was able to go on to kindergarten? First, the Community 
Partnership program gave local communities the responsibility 
to take care of their children. Second, the model allowed for 
accessing mental health support during children's most 
formative years. Third, the model helped parents feel 
comfortable utilizing the services. And forty, a very important 
element of the Community Partnerships approach is that it has 
emphasized the development of relationships between program 
providers and parents and specialists.
    For further details about the Community Partnership 
program, refer to the Massachusetts section of the State 
Initiatives Report by the Center for Law and Social Policy.
    The next issue is high quality at an affordable cost. A 
cost quality study conducted by Wellesley College Center for 
Research and Women and Abt Associates indicated that on a 
seven-point scale, Massachusetts programs rated a 4.94, with 5 
being good. While this finding made us feel confident that we 
were really moving the system in the right direction, we 
clearly need to address ways that the system can ensure that 
all programs successfully prepare children for school.
    Work still needs to be done to improve curriculum and to 
improve children's language and reasoning skills. In order to 
reach a good benchmark, programs need to provide a wide range 
of materials such as toys, art and science materials, and 
puzzles. But even more important, programs need professionally 
trained teachers to help children use the materials creatively 
and to incorporate children's interest in language and 
reasoning skills.
    Our research clearly shows the need to focus on teacher 
qualifications, since teacher qualifications are strongly 
related to quality outcomes for children. The study also found 
inequities in the centers serving predominantly low-income 
families. Only 10 percent of the classroom staff serving low-
income families have a 2-year college degree or more. This 
compares to 61 percent of the staff at centers serving moderate 
to high-income families.
    Another problems that we have identified is the high rate 
of turnover of teachers. Clearly, this is due to the very low 
salaries that most early childhood teachers receive. Higher 
quality early care and education costs significantly more than 
lower quality early care and education.
    The next issue is curriculum that builds on the foundation 
for successful school experiences. In keeping with the 
collaborative spirit that has evolved in Massachusetts, the 
legislature, recognizing the power of collaborative efforts, 
commissioned the preparation of early childhood program 
standards. And the commissioner of education and the State 
board of education perceived the need to link these standards 
to the Massachusetts curriculum frameworks so that they could 
become part of the curriculum continuum for education from pre-
K to grade 12. The preparation of the early childhood standards 
involved collaboration from many sources and has resulted in a 
draft publication which I am happy to submit to you with my 
written testimony.
    Senator Bond. It will be accepted as offered. Thank you.
    Ms. Schaefer. Thank you.
    Next, on the demonstration of the need for increased 
resources and development of State system for early care and 
education, the first recommendation is that the Federal 
Government should support States and communities in developing 
systems of early care and education. These systems should 
support the development of children from birth until they enter 
school, and they should be flexible.
    This recommendation assumes that all current grant programs 
will be continued and expanded to serve more children. We found 
in Massachusetts that building on Head Start, child care in 
public school systems was vital in bringing people together by 
adding new funds to support the collaboration. New funding for 
existing programs adds flexibility and increases quality.
    On preparation and remuneration of teachers, ideally, it 
would be wonderful if the Federal Government could fund high-
quality early childhood programs for all children birth to 5. 
Realistically, I am urging that the Federal Government fund the 
current need for teacher training and preparation. This would 
go a tremendous way toward improving the quality of the 
education that children receive in their most formative years. 
We really need support for early childhood teachers getting 
their degrees, and we need to increase compensation and 
training so that when they go forward, they stay in the field.
    In conclusion, we share a common goal. We want to be able 
to take what is known about the science of development and 
create quality early care and education programs for every 
child.
    I would like to end with the words of Ibsen: ``A community 
is like a ship; everyone ought to be prepared to take the 
helm.''
    It is this idea on with the Community Partnerships for 
Children has been built on, and it is this idea that has formed 
the foundation for the success of the Community Partnerships 
efforts. Communities and States need the support of the Federal 
Government in order to expand these initiatives which have 
already achieved significant outcomes.
    Thank you.
    Senator Bond. Thank you very much, Ms. Schaefer.
    The Community Partnership and particularly the early 
childhood special education and mental health remind me of a 
visit I made last month to Lee's Summit, MO, just east of 
Kansas City, where they have a significant program like that. 
We would like to make sure that we provide them and other 
districts around the State that are working in similar programs 
with your experience. I find that very exciting, and I am very 
happy to learn about the Community Partnership.
    [The prepared statement of Ms. Schaefer follows:]

                Prepared Statement of Elisabeth Schaefer
    Mr. Chairman, and Members of the Committee: I am pleased to be here 
today to discuss strategies for getting from science to practice, from 
neurons to neighborhoods.
    I would like to set the context for my remarks with a quote from 
Ibsen: ``A community is like a ship; everyone ought to be prepared to 
take the helm.''
    In Massachusetts we have been successful in working with other 
agencies and groups to share the responsibility for taking the helm. 
Those of us in the early childhood community have a history of working 
within the confines of our programs to serve specific groups of 
children. We are currently working to move outside our boundaries to 
create a system of early care and education.
    Our first attempt to create a system of early care and education in 
Massachusetts began within the Department of Education. When I came to 
Massachusetts to be the Director of Early Childhood Special Education 
in 1986 Massachusetts had been serving young children with disabilities 
for 10 years. At that time public schools did not have any funding for 
preschool children without disabilities and the classes were 
exclusively for children with disabilities. Schools did use Head Start 
programs and a handful of private programs for inclusion but eighty 
percent of the three- and four-year-old children with disabilities in 
the Commonwealth were educated in separate programs exclusively for 
children with disabilities. We knew that research supported inclusive 
programs and that children with disabilities would benefit by being 
placed in programs with their peers. We knew that their peers without 
disabilities were attending private preschools and child care programs. 
We worked to convince special education directors to place the children 
in community preschools and child care centers and a handful did, but 
most of the others felt that since they were responsible for 
implementing special education legislation they should keep the 
children in the public schools.
    A wonderful opportunity presented itself when new funds became 
available with the passage of PL 99-457 the Education of the 
Handicapped Amendment of 1986 and at the same time Massachusetts funded 
a state pre-K program. The Department decided to coordinate the two 
programs and have them both focus on inclusion. We realized we needed 
special education and regular education working together. We combined 
early childhood and early childhood special education programs into one 
unit within the Department. We also combined program standards, teacher 
certification standards and funding.
    While we initiated the joint program to promote the inclusion of 
young children with disabilities we found the quality of the programs 
improved for all children. Teacher expertise improved as they learned 
about early childhood and special education. And we now feel that we 
are operating programs that give children the opportunities to learn 
from each other. Currently in MA more than 80% of the three and four 
year old children with disabilities are in inclusive programs with 
their peers.
    The development of a system took another step forward in 1990. The 
Early Childhood Advisory Council to the State Board of Education 
conducted a study that found that the existing local early childhood 
councils could be effective in planning across public school, Head 
Start and child care programs if they were allowed to function in 
different ways in communities based on differing resources and needs. 
In 1992, the Council, along with Early Learning staff, developed a 
proposal to the Legislature to expand the state-funded preschool 
program based on a more collaborative model to provide high quality, 
comprehensive early care and education that would support the state's 
Education Reform initiative that went into effect in 1993. The Governor 
and the Legislature awarded an additional $6 million to the existing 
$6.9 million program in fiscal year 93 for the proposed Community 
Partnerships for Children program (CPC). In 1996 the Massachusetts 
Legislature studied the program and began to grow it to the current 
program funded with $96.6 million this year and will serve 22,450 
children.
    The basic problems and facts that the CPC model was designed to 
address were identified by many researchers as well as the observations 
of people familiar with the Massachusetts system. Ten years ago the 
existing situation was this:
    <bullet> Early care and education was a fragmented and duplicative 
system;
    <bullet> Head Start, private preschool and child care, public 
school preschools and family child care providers already existed, 
providing similar services, although they differed in philosophical 
history, funding, eligibility criteria and cost, etc.;
    <bullet> Every piece of the system was under-funded, significantly 
affecting program quality and equal access to high quality programs for 
children from different socioeconomic backgrounds; and
    <bullet> Parents found early care and education programs primarily 
through relatives, friends, pediatricians and other local contacts.
    The model that developed into the CPC program addressed these 
facts. The Department of Education funds grants to communities to 
develop local systems of early care and education for preschool-age 
children and their families. Each community or group of communities 
forms a local CPC council to conduct a needs assessment, plan for 
services that address the five CPC objectives in a way that is 
responsive to local needs and existing resources, and to oversee the 
ongoing program.
    Each council selects a lead agency to manage the funds. Lead 
agencies may be public school districts, Head Start programs or 
licensed child care agencies. Currently there are 15 child care 
agencies, 33 Head Start agencies and 120 public school districts that 
serve as lead agencies. The 168 CPC councils oversee the local early 
care and education systems in 335 out of the 351 cities and towns in 
Massachusetts.
    A goal of the CPC program is to involve those providing programs 
and services, along with family and community members, in designing and 
improving a local system of early care and education. Councils must 
include representatives of each sector of the early childhood community 
(Head Start, child care and public schools), parents, and members from 
the religious, medical, senior citizen and business communities, and 
representatives of other services or programs for children and 
families. Together, there are roughly 4,000 council members across the 
state involved in developing and improving local early care and 
education programs.
    Each CPC is unique, varying according to community resources and 
needs as well as incorporating the creativity of council members and 
staff. Even so, each community must plan to meet the following 
objectives. The Department of Education convenes an interagency team to 
read and rate council proposals in years when additional funding is 
allocated by the Legislature.
                             cpc objectives
    1. Support children of working families in accessible and 
affordable early care and education programs:
    <bullet> \1/3\ of the children have to be in full day, full year 
programs.
    <bullet> The community must provide options for families and 
scholarships for services with sliding fee scale.
    <bullet> The community may create/renovate space.
    2. Improve and support program quality through accreditation and 
professional development:
    <bullet> Require programs seek national accreditation.
    <bullet> Encourage college courses and career counseling.
    3. Work collaboratively with many programs and services to develop 
a local system of early care and education:
    <bullet> Joint outreach and screening.
    <bullet> Coordinate staff development across programs.
    4. Provide comprehensive services based on community and family 
needs:
    <bullet> Health and mental health services.
    <bullet> Family education and family literacy programs.
    5. Conduct outreach to the community to identify families that 
could benefit from the program.
    One concrete example of how Community Partnerships works to 
integrate services is in the area of mental health services. Several 
councils have added a mental health component to their programs as they 
identified children being expelled from early childhood programs due to 
behavioral problems. Mental health services allow children to stay in 
the context of their early childhood program while solutions are 
identified and implemented.
    One example occurred in a small town in the middle of the state. An 
early childhood program in a public school asked a mental health 
consultant who was contracted by the CPC to observe a child who the 
teachers were having difficulty understanding. The staff was also 
having a difficult time communicating with the parents. The family 
initially felt that the problems at the program must be the result of 
something happening to the child at the program. The child's teachers 
were becoming increasingly frustrated with the lack of support from 
home and the challenge of safely containing the child in the program. 
The consultant observed the child and met with the teachers to discuss 
the observations and met with Mom to assess her sense of the child's 
experience in the program. The program wanted to provide the Mom with 
an outside view of the program and how the program was dealing with the 
child's social/emotional challenges. The Mom told the consultant that 
the child's Dad had recently left the state and his leaving seemed to 
trigger the child acting out at home.
    The consultant observed twice in the classroom. Each time she was 
able to describe key behaviors she had observed in the child which 
helped staff think about how they were responding to the child how to 
reframe the teacher's response to achieve better results for the child. 
For example the consultant suggested that the traditional ``time out'' 
model that had worked well in the past was not working with this child. 
It appeared to be causing the child's troubling behavior to escalate. 
The consultant suggested that staff reframe ``time out'' as ``time 
in''. That if the child needed to take time away from the group that an 
adult would be with him to support him, and to reinforce the idea that 
his teachers were there to help him, no matter how challenging his 
behavior became.
    Learning to accommodate a child with a high level of emotional need 
was a challenge to the program staff. Everyone experienced much stress 
as they struggled to overcome old habits and disciplinary patterns but 
they allowed the child to experience his emotions and search for 
creative ways to build the child's self esteem while holding clear 
limits and still challenging him cognitively. Program staff learned 
ways to talk to the other children about strong emotions and how they 
could all work with their feelings when they felt too big. The program 
stretched the limits of the classroom boundaries to include support 
from administrative staff when they needed to remove the child from the 
classroom. They also used an area near the guinea pigs in the next 
classroom as a good place to go to calm down. The teachers also helped 
the child develop a relationship with the janitor and together they 
built a bird condominium which now graces the entrance to the early 
childhood program.
    Staff also received training on how to better understand what 
happens to children developmentally and psychologically when they are 
overcome with strong emotions. They also learned ways to problem-solve 
with all children and to teach strategies children could use to calm 
down.
    The consultant also helped the program staff build a better 
relationship with the Mom. Staff are in close e-mail contact with the 
Mom and tell her how the child does each day in school and she keeps 
them updated on progress at home. The teachers have recommended to the 
Mom that the child is evaluated for special education and the Mom was 
open to the possibility. The child is now seeing a therapist regularly.
    So, what are the elements of the CPC model that made it work in 
this example? First, CPC gives local communities the ability to take 
responsibility for children in their community. The concept of local 
responsibility resulted in the local CPC council members hiring a 
consultant to work with programs and families as mental health needs 
were identified. Recognizing this shared sense of responsibility, the 
consultant involved the teachers in the child's class, teachers in 
another classroom, the parents and even the custodian. The action steps 
taken with this particular child may have looked much different if the 
responsibility remained with a larger decision making body. With larger 
entities, rules and regulations for process and decision making guide 
how to respond any situation, limiting the flexibility needed to 
respond to individual needs. The local council members have the ability 
and flexibility to look at each individual situation, assess the 
circumstances and decide how much or how little is needed to best serve 
the child.
    The second element focuses on the idea of looking at needs through 
a bigger lens. The consultant knew that this was not just a matter of 
addressing the child's needs in the classroom. She responded to the 
teachers' needs around adapting the environment and teaching strategies 
when the child needed it. She knew that a communication system needed 
to be established between home and school. She knew that additional 
training for staff needed to be developed to better understand 
children's development and behaviors within the context of stress and 
crisis. Looking at needs through this larger context ensures that all 
responsible individuals are prepared and ready to respond to a child's 
needs.
    The third element highlights the importance of sharing resources 
and connecting families to those needed services. This consultant had 
been hired by another CPC council to assist in responding to mental 
health needs in a neighboring community. The neighboring CPC shared 
their resources (i.e., the consultant) with this local CPC. The Council 
hired the consultant. The consultant and the program teachers connected 
the mother to special education, another support to the child and the 
family. The CPC council also provided the mother with resources to 
local therapeutic services. If local agencies and service providers 
were not working together, service provision to this child would have 
been fragmented and potentially ineffective. Combining the resources of 
a local community ensures that the appropriate services will be 
identified and a seamless delivery of services will be provided.
    But the last, and highly important element, is that this local 
approach makes way for the development of relationships. The council 
establishes relationships with programs. It is this relationship that 
made it possible for the program to open their doors and ask for help. 
The consultant helped to build the relationship between the teachers 
and the mother so that there would be a union, where all parties were 
working together in the interest of the child. The relationships made 
it possible for the teacher to approach the mother about having the 
child evaluated for special education services. It is the relationships 
that make this model work . . . trust that everyone is working together 
to take the helm and ensure that the needs of every child are met.
    This is one example of how Community Partnerships helps to build a 
system of early care and education around existing programs. Community 
Partnerships has also brought resources to the early childhood 
community that have allowed programs to make significant strides in 
improving quality. One of the objectives of the program is to build 
quality across the system of early care and education. As a result 
Massachusetts has gone from having 66 programs accredited by the 
National Association for the Education of Young Children in 1993, when 
Community Partnerships for Children started to 806 programs today. 
Massachusetts has led the country in the number of accredited programs 
for the last four years. Family child care programs are also working to 
improve program quality. Of the 1,574 family child care providers that 
participate in CPC, 608 are either accredited by the National 
Association of Family Child Care or have Child Development Associate 
Certification or have an Associate's or Bachelor's degree in early 
childhood education.
    Creating a community that supports the development of quality 
programs has decreased the fragmentation of services. Many councils 
have directors' groups that meet regularly for support and service 
coordination.
    Providing local communities with a role in supporting the 
development of young children has resulted in communities contributing 
45 cents in in-kind contributions for every dollar of state funding 
received according to a study conducted by Tufts University in 1996. 
These in-kind contributions were defined as services, materials or 
space contributed by CPC partners to meet CPC goals that were not 
reimbursed by the grant. Some examples include the value of 
transportation services, or administrative support donated by a partner 
agency.
    In 2000, the Department of Education contracted with the Wellesley 
College Center for Research on Women and Abt Associates to conduct a 
study of the cost and quality of early care and education in 
Massachusetts. The study is being implemented over several years and 
each year focuses on a different sector of the early care and education 
system. The report on the first year focused on center-based, full-day 
full-year programs for preschool children. Subsequent reports will 
focus on public school preschool programs, family child care programs 
and center-based full-day full-year programs for infants and toddlers. 
The study will not assess the cost and quality of Head Start programs 
in Massachusetts since there is a national evaluation currently 
assessing Head Start that includes Massachusetts sites.
    The first study found that full-time early care and education for 
preschool children in Massachusetts is, on average high quality. 
Researchers used the Early Childhood Rating Scale (ECERS), a 7-point 
scale with a 5 being the ``good'' benchmark of care. A ``5'' is 
associated with later school success in young children. Massachusetts 
programs are on average a 4.94. While this finding made us confident we 
are moving the system in the right direction other findings identified 
issues we need to address if we are to develop a system that will 
prepare all children for school.
    We found that Massachusetts' classrooms need to improve in the 
following ways:
    <bullet> We need to improve the curriculum, since only 35% of the 
programs reached the ``good'' benchmark for language and reasoning and 
only 24% rated 5 or better on the activities subscale. To reach the 
good benchmark staff must integrate language and reasoning skills into 
all areas of the program. To reach a good benchmark on activities they 
need to provide a wide range of toys, art and science materials and 
puzzles and they must facilitate creative use of the materials and 
incorporate children's interests into the curriculum activities.
    <bullet> Teacher qualifications are related to quality outcomes for 
children. The study found inequities in centers serving predominantly 
low-income families. Only 10% of classrooms serving low-income families 
have a two-year college degree or more, compared with 61% of staff at 
centers serving moderate to high-income families.
    <bullet> Quality was also related to the amount of time teachers 
spent with children versus teacher assistants. Higher quality was 
associated with teachers spending more time with children than 
assistant teachers.
    <bullet> The average turnover rate for teachers is 26%, with 41% of 
the teachers leaving their jobs and leaving the field entirely.
    <bullet> The cost of raising the quality of the programs from a 3 
(adequate) to 5 (good) would require a 27% increase in the cost, 
although simply increasing funding would not achieve higher quality 
automatically.
    We have begun to address the issue of curriculum with the 
development of Early Childhood Program Standards that include health, 
safety and education components. The curriculum guidelines included in 
these standards are built around the Massachusetts Curriculum 
Frameworks so that the preschool curriculum articulates with the 
kindergarten curriculum.
                        challenges to the system
    Financing quality improvements to the system is complicated by the 
fact that 60% of the funding for the system is paid by parents. This 
fact is often ignored by policy makers who typically try to address 
funding issues with increases in the subsidy rates. Subsidies cover 
such a small portion of the system that they cannot finance major 
system improvements, not finance improvements where or in the way they 
are most needed. The major funders of the system, parents, are already 
struggling to pay the current cost of care.
                            recommendations
    Based on our work with the Community Partnerships program over the 
years and an analysis of the results of the Cost and Quality Study in 
Massachusetts, the following recommendations can be formulated:
    <bullet> Support early childhood teachers getting degrees. One 
primary key to high quality programs and good outcomes for children is 
teachers' educational level. In order to implement the kind of 
language-rich environment and a curriculum that enriches children's 
cognitive and social/emotional development, teachers need a college 
education with a focus on early childhood education and child 
development. Given the current circumstances, this will require a 
reasonable time to achieve. Massachusetts' new standards require that 
early care and education teachers will be required to have Associates 
degrees seven years from the effective date of the standards and 
Bachelor's degrees within fourteen years of the approval date. Funding 
to make this possible through a variety of routes will be essential.
    <bullet> As expectations for teachers' rise, training opportunities 
and compensation need to become comparable to those available to public 
school teachers. It is clear that the amount of funding needed to 
accomplish this cannot come from parents and significant federal, state 
and/or local investments will be needed soon and over the long term.
    <bullet> Flexibility must be built into funding to accommodate 
these differences and allow states to build on their own array of 
programs to achieve key benchmarks of access and quality. Just as local 
programs develop at different rates and have different needs and 
resources available, so do states have very different existing 
resources and populations.
    <bullet> Target programs for moderate-income families and infants 
and toddlers. Several studies show they have the least access to high 
quality care.
    <bullet> Continue to build on existing early childhood initiatives 
such as section 619 and Part C of IDEA, TANF, CCDF, and Head Start. 
Each of these programs has strengths and contributes to the overall 
system of early care and education. We should be proactive in 
coordinating these programs.
                               conclusion
    Putting local Community Partnerships Councils ``at the helm'' has 
been essential to the growth and improvement of quality in early care 
and education programs in Massachusetts. It is community members who 
care the most and reap the benefits from the progress and success of 
early childhood initiatives. Parents feel most comfortable contacting a 
local knowledgeable person or organization about their child care needs 
and other needs they might have for parenting education and family 
support. Using early childhood programs is about trust. The local 
flavor and flexibility afforded to CPC councils has promoted creativity 
in the way various services are implemented. The focus on collaboration 
has developed networks both within communities and between communities. 
Although it has taken several years, CPC's are starting to see 
themselves as part of a larger system and often take advantage of the 
larger network of programs to solve problems that come up in their own 
programs as well as share ideas with others about their successful 
initiatives. It is the local flavor and flexibility of the program that 
engages people in building a system out of fragmentation and in 
overcoming barriers of all kinds. The design of the CPC program works 
on several levels at once, from the individual to the program level to 
the statewide network. This is a primary strength of any program that 
really works and that can sustain itself into the future.

    Senator Bond. Ms. Russell?
    Ms. Russell. Senator Bond, I appreciate the opportunity to 
talk with you. My name is Sue Russell, and I am executive 
director of Child Care Services Association in Chapel Hill, NC.
    We have heard earlier today from experts who tell us that 
the education, compensation and retention of the work force are 
critical to making positive gains for our children. Yet today 
and every day in North Carolina, about 35 child care teachers 
will leave their child programs, representing an annual 
turnover rate of 31 percent. They leave because they are paid 
less than store clerks or parking lot attendants. Their median 
wage is $7.50 an hour.
    These teachers are women, mostly with children themselves, 
who want to keep educating and caring for our young children, 
but must move to other jobs to support their own families. They 
have little formal education past high school, but a 
significant majority want to take college courses to learn 
more. In the last 3 years, about one-third of these women 
relied on one or more forms of public assistance, and 27 
percent of them have no health insurance from any source.
    All this paints a bleak picture of the educational success 
of our children.
    But in some parts of our country, the picture is even 
worse, and it could have been worse in North Carolina. In fact, 
thanks to some major Statewide initiatives, we are seeing 
incremental gains in our State.
    To address the issues I just described, Child Care Services 
Association began the T.E.A.C.H. Early Childhood Project in 
North Carolina in 1990. We designed a comprehensive scholarship 
that helped teachers take courses toward an associate's degree 
in early childhood education.
    T.E.A.C.H. scholarships typically go beyond help with 
tuition and books to include travel stipends and paid release 
time, allowing recipients to attend classes or study. Their 
sponsoring child care programs are asked to help support part 
of the costs. When a teacher completes a required number of 
credit hours, usually 9 to 15, she is eligible for a bonus or a 
raise. In return for this incentive, she must agree to remain 
in her sponsoring center for another year. Family child care 
providers and directors are also eligible for scholarships. 
Participants can renew their scholarship each year for as long 
as it takes them to earn their degree, which may be 5 to 6 
years because they are working full-time.
    We began with private funds from foundations, United Way, 
and corporations to start in pilot communities. In 1993, North 
Carolina also initiated Smart Start, a comprehensive early 
childhood initiative. This effort provides local communities 
with significant resources to help ensure that children come to 
school healthy and ready to succeed.
    It was recognized early on that to be successful at the 
local level, we needed to work on improving the education, 
compensation, and retention of the early childhood work force 
Statewide. So to build that critical piece of our 
infrastructure for quality, the T.E.A.C.H. Early Childhood 
Project received $1 million from our State legislature. This 
year, our T.E.A.C.H. budget is $3 million, using a combination 
of State, CCDBG, foundation, and corporate funds. In our first 
year, 21 scholarships were awarded; last year, we provided over 
4,900 scholarships, reaching child care providers in all 100 
counties.
    The results have been remarkable. Child care teachers, 
directors, and family child care providers on T.E.A.C.H. 
scholarships last year alone completed over 21,000 credit 
hours, saw their earnings increase, and left their programs at 
a rate of less than 10 percent per year. Now that scholarships 
have become universally available, we have seen steady growth 
in demand, and our community college system has had to respond 
with more classes, more accessible times, modalities and 
locations for instruction, and even more colleges with 
associate degree programs.
    But we also realized that scholarships are not enough. Some 
child care teachers already have degrees. Those on T.E.A.C.H. 
scholarships would also expect to earn more money once they 
earned their degrees. We knew we had to find a way to improve 
child care earnings without forcing already struggling parents 
to pay more for child care.
    So in 1994, we began the Child Care WAGES Project. This 
effort provides graduated supplements paid directly to 
participants and tied to their level of education. Supplements 
are paid ever 6 months as long as the individual remains in her 
child care program.
    Again, results have been impressive. Last year, over 8,600 
child care providers participated. Supplement amounts ranged 
from $200 to $4,000 annually. Because supplement amounts 
increase as one gets more education, WAGES participants are 
motivated to go back to school. And only 18 percent of 
participants left their programs last year, a remarkably low 
percentage given that this is the best-educated sector of our 
work force and would therefore have the most other options. 
This year's $7.7 million for WAGES comes from Smart Start and 
CCDBG.
    We also realized that health insurance continues to be an 
issue facing the work force. So in 1998, we began the 
T.E.A.C.H. Early Childhood Health Insurance Program. Funded 
exclusively with funds from CCDBG, this initiative reimburses 
eligible child care programs for one-third of the cost of 
health insurance for their teachers. About 2,500 child care 
teachers, directors, and family child care providers benefited 
from the program last year. After 1 year on the program, 
participating center turnover rates dropped by 10 percentage 
points, again making progress toward the goal of a better-
educated, compensated and retained work force.
    Response by the work force has been extremely positive. 
Through and incentive approach, we are directly helping with 
the cost of education, better compensation, and benefits. And 
we have seen Statewide impact. In 1993, turnover rates in our 
State were 42 percent a year. Now, they are down to 31 percent. 
In 1998, 62 percent of teachers had some college course work or 
a degree; 3 years later, it has increased to 82 percent. In 
those same 3 years, we have also seen the percent of teachers 
with no insurance drop from 30 percent to 27. We are learning 
that these initiatives can make a difference but that change 
will be incremental and takes a long time.
    T.E.A.C.H. Early Childhood Projects are now operating in 19 
States, housed in various Statewide nonprofit organizations. 
With foundation help, Child Care Services has created the 
T.E.A.C.H. Early Childhood Technical Assistance Center to help 
States begin and grow successful, results-focused projects. 
This year alone, T.E.A.C.H. projects expect to award over 
18,000 scholarships. Nationwide, funding for these projects is 
patched together, with 14 States using multiple sources of 
funds. But the majority of funds comes from CCDBG or TANF 
transfer funds, with 16 of 19 States benefiting from those 
dollars.
    I have made presentations about T.E.A.C.H. in 36 States. In 
every State, the issues are the same--increasing and/or high 
turnover rates, low teacher compensation, and low and/or 
declining teacher educational qualifications. The biggest 
barrier that States face when deciding what to do is the lack 
of resources. Many States are faced with long waiting lists for 
child care assistance, and families are struggling without 
child care. So focusing on quality improvements, particularly 
those focused on the work force, may seem overwhelming. Yet 
research tells us that good outcomes for young children in 
child care are tied directly to the education, compensation, 
and retention of their teachers.
    My question is how can we afford not to address these 
issues. Targeted and increased Federal resources can make the 
difference our children, families, and Nation need.
    Thank you.
    Senator Bond. Thank you very much, Ms. Russell. You 
certainly have addressed an overwhelming problem, and we look 
forward to learning more about how you have expanded it into 
other States.
    [The prepared statement of Ms. Russell follows:]

                   Prepared Statement of Sue Russell
    Senator Kennedy, Senator Gregg and members of the Committee, I 
appreciate the opportunity to talk with you. We have heard today from 
experts that tell us that the education, compensation and retention of 
the workforce is key to making positive gains for children. Yet today 
and every day in North Carolina about 35 child care teachers will leave 
their child care programs, representing an annual turnover rate of 31%. 
They leave because they are paid less than store clerks or parking lot 
attendants; their median wage is $7.50 an hour. These teachers are 
women, mostly with children themselves, who want to keep educating and 
caring for our young children, but must move to other jobs to support 
their own families. They have little formal education past high school 
but want to take college courses to learn. In the last three years 
about one-third of these women relied on one or more forms of public 
assistance. And 27% have no health insurance from any source. All of 
this paints a bleak picture for the educational success of our 
children.
    But in some parts of our country the picture is even worse, and it 
could have been worse in North Carolina. In fact, thanks to some major 
statewide initiatives, we are seeing incremental gains in our state. To 
address the issues I just described, Child Care Services Association 
began the T.E.A.C.H. Early Childhood<Register> Project in North 
Carolina in 1990. We designed a comprehensive scholarship. Our initial 
scholarship helped teachers take courses toward an associate degree in 
early childhood education. T.E.A.C.H. scholarships typically go beyond 
help with tuition and books, to include travel stipends and paid 
release time, allowing them to attend classes or study. Their 
sponsoring child care programs are asked to help support part of the 
costs. When a teacher completes a required number of credit hours, 
usually 9-15, she is eligible for a bonus or a raise. In return for 
this incentive, she must agree to remain in her sponsoring center for 
another year. Family child care providers and directors are also 
eligible for scholarships. Participants can renew their scholarship 
each year for as long as it takes them to earn their degrees, which may 
be 5-6 years because they are working full time.
    When we began in North Carolina, we used private funds from 
foundations, United Way and corporations to fund the Project in pilot 
communities. In 1993, North Carolina also initiated a comprehensive 
early childhood initiative, called Smart Start. This effort provides 
local communities with significant resources to help ensure that 
children come to school healthy and ready to succeed. It was recognized 
early on that to be successful at the local level, we needed to work on 
improving the education, compensation and retention of the early 
childhood workforce. So, to build that critical piece of our 
infrastructure for quality, the T.E.A.C.H. Early Childhood<Register> 
Project received $1 million from our state legislature. This year, our 
T.E.A.C.H. budget is $3 million, using a combination of state, CCDBG, 
foundation and corporate funds. In our first year, 21 scholarships were 
awarded; last year we provided over 4,900 scholarships, reaching child 
care providers in every county.
    The results have been remarkable. Child care teachers, directors 
and family child care providers on T.E.A.C.H. scholarships, last year 
alone, completed over 21,000 credit hours, saw their earnings increase 
and left their programs at a rate of less than 10% per year. Now that 
scholarships have become universally available, we have seen steady 
growth in demand and our community college system has had to respond 
with more classes, more accessible times, modalities and locations for 
instruction and even more colleges with associate degree programs.
    But we also realized that scholarships are not enough. Some child 
care teachers already had degrees. Those on T.E.A.C.H. scholarships 
would also expect to earn more money once they earned their degrees. We 
knew we had to find a way to improve child care earnings without 
forcing already struggling parents to pay more for child care. So in 
1994 we began the Child Care WAGE$<Register> Project. This effort 
provides graduated supplements paid directly to participants and tied 
to their level of education. Supplements are paid every six months as 
long as the individual remains in her child care program. Again, 
results have been impressive. Last year, over 8,600 child care 
providers participated. Supplement amounts ranged from $200 to $4,000 
annually. Because supplement amounts increase as one gets more 
education, WAGE$ participants are motivated to go back to school. And 
only 18% of participants left their programs last year, a remarkably 
low percentage given that this is the best educated sector of our 
workforce and would therefore have the most other options. Funding for 
WAGE$ comes from Smart Start (state funds) and CCDBG.
    We also realized that health insurance continues to be an issue 
facing the workforce. So in 1998 we began the T.E.A.C.H. Early 
Childhood<Register> Health Insurance Program. Funded exclusively with 
funds from CCDBG, this initiative reimburses eligible child care 
programs for one-third of the cost of their health insurance for their 
teachers. To be eligible the center or family child care home must have 
all teachers with two or four year degrees in early childhood 
education, or must be willing to sponsor some of their staff on 
T.E.A.C.H. Early Childhood<Register> scholarships to earn degrees. 
About 2,500 child care teachers, directors and family child care 
providers benefited from the program last year. After one year on the 
program, turnover rates dropped by 10 percentage points, again making 
progress toward the goal of a better educated, compensated and retained 
workforce.
    Response by the workforce has been extremely positive. Through an 
incentive approach, we are directly helping with the cost of education, 
better compensation and benefits. And we have seen statewide impact. In 
1993, turnover rates in our state were 42% a year, now down to 31%. In 
1998 62% of teachers had some college coursework or a degree; three 
years later it has increased to 82%. In those same three years we have 
also seen the percent of teachers with no insurance drop from 30% to 
27%. We are learning that these initiatives can make a difference but 
that change will be incremental and takes a long time.
    T.E.A.C.H. Early Childhood<Register> Projects are now operating in 
19 states, housed in various statewide nonprofit organizations. With 
foundation help, Child Care Services has created the T.E.A.C.H. Early 
Childhood<Register> Technical Assistance Center, to help states begin 
and grow successful, results-focused projects. This year alone 
T.E.A.C.H. Projects expect to award over 18,000 scholarships to be used 
at one of 447 different universities or community colleges. Nationwide, 
funding for these Projects is patched together, with 14 states using 
multiple sources of funds and 16 out of 19 states using CCDBG or TANF 
transfer funds to support their efforts. Child Care WAGE$<Register> 
Projects are also being replicated.
    I have made presentations about T.E.A.C.H. in 36 states. In every 
state the issues are the same, increasing and/or high turnover rates, 
low teacher compensation and low and/or declining teacher educational 
qualifications. The biggest barrier states face when deciding what to 
do is the lack of resources. Many states are faced with long waiting 
lists for child care assistance and families are struggling without 
child care, so focusing on quality improvements, particularly those 
focused on the workforce, may seem overwhelming. Yet research tells us 
that good outcomes for young children in child care are tied directly 
to the education, compensation and retention of their teachers. My 
question is how can we afford not to address these issues? Targeted and 
increased federal resources can make the difference our children, 
families and nation need.

    Senator Bond. Now, a long-time, very good friend, Sharon 
Rhodes.
    Welcome, Sharon.
    Ms. Rhodes. Thank you, Senator Bond.
    It is indeed an honor to be here today representing Parents 
as Teachers National Center. While I am a director of Parents 
as Teachers National Center, I am also, like many of you, a 
parent and a grandparent.
    Thank you for the invitation to appear before the committee 
today to present on the importance of parental involvement in 
children's learning from the earliest years on and how the 
Parents as Teachers program helps parents give their children 
the very best possible start in life.
    It has been my privilege to have been involved in the 
Parents as Teachers program since 1985, when it was implemented 
Statewide in Missouri, thanks to the vision and leadership of 
then Governor, now Senator, Kit Bond.
    Parents as Teachers has since then expanded to more than 
2,800 sites in all 50 States, in U.S. Territories, as well as 
overseas. I want to take this opportunity to acknowledge 
Senator Bond's long-term commitment to families and children.
    As we well know, there are no prerequisites and no 
admission exams required to become a parent. Good or bad, right 
or wrong, many parents are on their own, and to complicate 
matters, babies do not come with directions. Yet we expect 
parents to have the knowledge and the tools necessary to 
prepare their children to enter kindergarten ready to learn and 
to succeed in school.
    We have heard from Dr. Zigler this morning, who has been an 
invaluable resource to Parents as Teachers over the years, and 
we have also heard from our distinguished panel today about the 
importance of capitalizing on windows of learning opportunities 
in the early years of life. We can no longer afford to think of 
education as beginning in preschool or kindergarten. Therefore, 
we must encourage and support parental involvement in 
children's learning from birth on because, as Mrs. Bush told 
this committee in January, it is during those critical years 
between the crib and the classroom that a child's education 
really begins.
    The value to schools and communities of fostering parental 
involvement starting from birth is that it establishes a 
pattern for parental involvement and continues when the child 
starts school and then beyond.
    What better place to foster parental involvement than in 
the parents' own home? Home visiting programs such as Parents 
as Teachers play a critical role, because as we all know, 
parents are their children's first and most influential 
teachers. Parents as Teachers trains parent educators to bring 
research-based information grounded in child development and 
neuroscience to parents in a way that makes sense to them. Our 
goal is not to turn parents into neuroscientists, but to 
translate the neuroscience findings into concrete What, When, 
How, and Why suggestions that parents can use.
    It is vital that parents know how to recognize and then to 
capitalize on teachable moments using simple, everyday 
activities such as feeding time, a game of peekaboo, or a trip 
to the grocery store--all opportunities to develop their 
child's basic skills. Research bears out how parents converse 
with their children and formulate questions around these early, 
everyday activities, that this lays the foundation for their 
child's literacy skills and later reading success.
    Senator Kennedy has publicly stated that it is essential to 
plant the seeds of success to improve literacy, the gateway of 
learning, and we at Parents as Teachers could not agree more.
    It is so exciting to see parents realize that they have 
what it takes to impact their child's learning. Recently, I 
accompanied a parent educator on a visit to a family living in 
a Yonkers housing project. The father was present but did not 
appear to be engaged in the visit at all. There were four or 
five children all bouncing around this tiny apartment, which 
made for a tense and distracting environment.
    At the end of what I would say was a challenging home 
visit, the father looked up and spoke to us for the very first 
time and said: ``Do you mean all I have to do is play with my 
kids to help their brains grow?'' What a great step forward for 
that family.
    Senator Gregg told this committee last month that the 
education and nurturing a child receives prior to school sets 
the foundation for his or her formal education. We do have a 
lot of good information for parents and early childhood 
professionals. Now we have to put it to work.
    In sum, our experience with Parents as Teachers confirms 
that when parents are involved in their child's learning from 
early on, they stay involved. Therefore, we urge Congress to 
include parental involvement as a critical component of all 
early childhood initiatives.
    We also believe that any comprehensive education reform 
must include a home visitation program like Parents as Teachers 
for all children during the early years beginning at birth.
    I want to thank you once again for inviting us to share our 
experiences in involving parents in their children's early 
learning through the Parents as Teachers program.
    Thank you.
    [The prepared statement of Ms. Rhodes follows:]

                 Prepared Statement of Sharon F. Rhodes
    Mr. Chairman and Members of the Committee: It is indeed a privilege 
to be here representing the Parents As Teachers National Center, which 
serves more than 2,800 Parents as Teachers (PAT) sites in all 50 states 
and several other countries. I am Sharon Rhodes, Director of Program 
Development and Evaluation at the Parents as Teachers National Center. 
Thank you for your invitation to appear before the committee today to 
present on the importance of parental involvement in children's 
learning from the earliest years, and on Parents as Teachers, which is 
a parent support and education program founded on the principle that 
parents are the most important determinants of their children's success 
in school and in life. I have been involved in Parents as Teachers 
since 1985, when it was implemented statewide in Missouri, thanks to 
the vision and leadership of then Governor, now Senator, Kit Bond. In 
addition to my statement today, I have provided a written statement for 
the record.
    Parents as Teachers National Center recognizes that the first years 
of life are a time of tremendous growth and learning. Research has 
clearly demonstrated this. We also recognize that the quality of a 
child's environment in these early years has a strong influence on that 
child's later development and success in school and life. Our 
experience has demonstrated the effectiveness of helping to engage 
families early in their child's development. Further, thirty years of 
research show that greater family involvement in children's learning is 
a critical link in the child's development of academic skills, 
including reading and writing. Parents as Teachers and other family 
support and parent education programs that emphasize the earliest years 
of life can be part of a broader effort to foster widespread parent 
involvement in their children's learning and education.

The Parents as Teachers Program

    Parents as Teachers is a parent education and support program that 
helps parents give their child the best possible start in life. The 
program is designed to enhance child development and school achievement 
through parent education accessible to all families, beginning even 
before the child's birth. Acknowledging that all parents deserve 
support in laying a strong foundation for their child's success. 
Parents as Teachers is designed for the voluntary participation of all 
families. It is a universal success program, appropriate for and 
welcoming of families from all walks of life.
    The work of Parents as Teachers is grounded in these guiding 
principles:
    <bullet> The early years of a child's life are critical for optimal 
development and provide the foundation for success in school and in 
life; children are born to learn!
    <bullet> Parents are their children's first and most influential 
teachers. Parents are the experts on their own children by virtue of 
the special knowledge and insight that comes from everyday family 
experiences and the attachment parents and their children share.
    <bullet> All families have strengths, and all parents want to be 
good parents.
    <bullet> Established and emerging research should be the foundation 
of parent education and family support curricula, training, materials 
and services.
    <bullet> All young children and their families deserve the same 
opportunities to succeed, regardless of any demographic, geographic or 
economic considerations.
    Among home visiting programs, Parents as Teachers is alone in 
offering a universal access model. For example, in Missouri and Kansas, 
PAT is available to all families with children in the appropriate age 
range. Recognizing that all families can benefit from support. Parents 
as Teachers families come in all configurations, from all socio-
economic levels, and from both rural and urban communities. This 
universal access reduces the stigma that other programs addressing only 
high-risk families may carry. However, universal access does not mean 
that one size fits all. Parents as Teachers has been adapted to meet 
the needs of diverse families in different ways.
    Parents as Teachers brings research-based information (grounded in 
both child development and neuroscience) to parents in a user-friendly 
format to help them understand how they can impact their child's 
development, starting prenatally. The Parents as Teachers Curriculum 
offers a holistic approach, covering 4 domains development (cognitive, 
motor, social-emotional, and language), emphasizes increasing parents' 
knowledge of child development, and focuses on sharing parent-child 
activities that will foster that development and enrich parent-child 
interaction.
    The Parents as Teachers Born to Learn<greek-T><greek-M> Curriculum, 
developed in collaboration with neuroscientists from the Washington 
University School of Medicine in St. Louis and the University of 
Chicago Medical School, distinguishes Parents As Teachers from other 
parent support programs. The Born to Learn<greek-T><greek-M> 
Curriculum, is infused with neuroscience-based information for parents 
about their child's brain growth and development, translated into 
concrete ``when'', ``what'', ``how'' and ``why'' suggestions to enhance 
their children's learning and development. The goal is not to turn 
parents into neuroscientists; using the Born to Learn<greek-T><greek-M> 
Curriculum, parent educators provide parents with the tools to use 
science in everyday ways. For example, language learning, which 
neuroscience research has shown begins in the first few months of life, 
is encouraged by sharing with parents the value of ``parentese'' and 
face-to-face talking with their infants. The value of play is 
underscored by connecting it with how the brain develops. For example, 
repetitive games and games that stimulate several senses are encouraged 
because they build and strengthen connections among brain calls.
    The Curriculum also provides flexibility as to how the information 
is presented. Detailed personal visit plans are offered in weekly bi-
weekly and monthly formats to accommodate individual family and program 
needs. The parent materials are developed at two reading levels to meet 
the literacy needs of a variety of families. Curriculum and parent 
materials are now being made available in Spanish as well as English. 
The curriculum begins prenatally and is organized around children's 
developmental stages.
    The Born to Learn<greek-T><greek-M> Curriculum is the heart of 
Parents as Teachers. In addition to core Parents as Teachers programs, 
many other early childhood programs use the Born to 
Learn<greek-T><greek-M> Curriculum and training to supplement their 
services to families. These programs, which include Even Start, Head 
Start, Family Resource Centers, child care centers, and Healthy 
Families America, have a variety of target areas: early literacy, child 
abuse prevention, health care, parent education; and early childhood 
development, and yet the Born to Learn<greek-T><greek-M> Curriculum is 
effective for each.
    The Parents as Teachers model in its delivery has four components: 
1) personal visits, 2) group meetings, 3) developmental, health, 
vision, and hearing screenings, and 4) a resource and referral network.
Personal Visits
    To most families enrolled in Parents as Teachers, the personal 
visit stands out as the major service delivery component. Personal 
visits support parents in their parenting role in order to promote 
optimal child development and positive parent-child interaction. The 
Parents as Teachers National Center recommends personal visits be 
conducted at least monthly. (Families with greater needs might receive 
weekly or bi-weekly visits.)
    A trained, certified Parents as Teachers parent educator conducts 
the personal visit. A typical visit begins with the parent educator's 
preparation, as she reviews the personal visit plan in the Curriculum, 
collects the handouts to share with the parent, and assembles materials 
for the parent-child activity. As she plans the visit, she remembers 
interests, concerns or needs the parents have expressed, as well as 
observations she has made of the child's development. Using these, she 
cam make this truly a personal visit, individualized for the family she 
will be seeing.
    The personal visit typically lasts an hour, and is usually held in 
the family's home. The parent educator, parents or primary care 
providers, and child make themselves comfortable on the floor, the 
child's play space. Sometimes other people join in the visit, such as 
child care providers, grandparents, adult relatives or other children. 
Anyone living in the home or involved in the care of the child is a 
welcome participant. The patent educator begins by checking in with the 
parents.
    What new things has the child done since the last visit? How did 
the child and parent like the follow-up activity the parent educator 
suggested at the last visit? She will also pay attention to the child, 
talking to him, including him, in the conversation, and making 
observations about his development. Throughout the visit the parent 
educator will be sensitive to the comments and concerns of the parents. 
While talking to the parents, the parent educator will incorporate 
discussion points on topics included in this visit plan. She may 
present a parent handout and focus the discussion by referring to it. 
She may show a short video segment that illustrates an aspect of brain 
development. The provision of information is conversational, and is 
woven into the interaction between parent, child and parent educator. 
Most often the parent educator will use an observation of the child to 
provide the context for the information and make it relevant to the 
parents.
    The parent educator will also engage the parents and child in an 
activity that is based on the information presented in the plan. This 
provides for meaningful interaction between the parents and child, and 
gives the parents an opportunity to observe their child's development. 
What the parent and child will also remember, however, is that it was 
fun. The parent educator suggests a follow-up activity that extends the 
learning through the time between personal visits.
    A literacy activity is an important part of each visit. The parent 
educator brings a book, often related to the parent-child activity, for 
the parent to read to the child. Book exploration skills are taught, 
including telling a story based on the pictures in the book, so that 
parents of varying literacy levels can successfully read to their 
child. Rhymes and songs are a part of many visit plans, and parent 
handouts support the development of the child's phonological awareness.
    At the and of the visit the parent educator checks for any last 
questions or concerns the parents might have. She summarizes the visit 
by reviewing a significant developmental characteristic she was able to 
observe, reflecting on a strength she observed in the parents, and 
reminding the parents of the follow-up activity she has given them to 
do.
    Programs typically offer visits in the evenings and on Saturdays to 
accommodate the schedules of working parents.
Group Meetings
    A Parents as Teachers parent group meeting is an opportunity to 
enhance parents' knowledge of child development and parenting issues 
through group experiences. Group meetings provide opportunities for 
parents to broaden their knowledge, learn from each other, observe 
their children with other children, and learn and practice parenting 
skills. Topics may include early brain development, fostering the 
child's interest in books, choosing developmentally appropriate toys, 
to name a few.
Developmental and Health Screening
    Parents as Teachers provides periodic screening for early 
identification of developmental delays or health problems. Research-
based screening instruments are used and parent educators receive 
training in their administration. Screening provides regular review of 
each child's developmental progress, identifies strengths and abilities 
as well as areas of concern that require referral for follow-up 
services, and increases the parents understanding of his or her child's 
development.
Resource and Referral Network
    Families may have needs for services that are outside the scope of 
Parents as Teachers. Parent educators help families identify interests 
and needs, connect with needed resources, and overcome barriers to 
accessing services. Referrals to pediatricians, child diagnostic or 
therapy programs that are indicated as a result of screening are prime 
examples of this service. Other examples include helping families 
provide for basic needs such as housing or utilities, connecting 
families to child care, and making sure that adequate medical care is 
accessible and affordable for the family. Each local Parents as 
Teachers program develops a resource network within its own community 
that it can use to locate services for families. Each Parents as 
Teachers Program also has a Community Council made up of 
representatives from local agencies, and that also provides links to 
service providers in the community.

Success of the Parents as Teachers Program

    Parents as Teachers began with four pilot sites in 1981, was 
implemented statewide in Missouri in 1985, and currently has more than 
2,800 sites in 50 states as well as foreign countries and U.S. 
territories. The Parents as Teachers National Center has trained and 
certified over 10,000 parent educators. Several hundred thousand 
families have participated in Parents as Teachers. Nationwide, Parents 
as Teachers is successfully blended with many existing programs for 
families of young children. These existing programs for families of 
young children often have a home visitation component delivered by 
family service workers or family educators, but without a research-
based child development curriculum. They incorporate the Parents as 
Teachers model to add parent education through home visiting or to 
enhance the quality of their services to families. The tremendous 
growth of Parents as Teachers can be attributed to the adaptability of 
the program, research-based curriculum and training, flexibility of the 
program, universal access approach, relatively low cost of 
implementation, and documentation of program effectiveness.
    PAT has a long history of independent evaluations demonstrating 
positive outcomes for young children and their families. The 
evaluations have focused on three main areas: (1) child development; 
(2) parent knowledge, attitudes, and behavior; and (3) parent-child 
interaction.
Child Development
    Results of the evaluations show that Parents as Teachers prepares 
children to enter kindergarten ready to succeed. Parents as Teachers 
children are more likely to be on-track developmentally and to have 
developmental delays identified early and remediated. An evaluation of 
the statewide implementation of the Parents as Teachers program in 
Missouri found that more than one half of the children with observed 
developmental delays overcame them by age three. Parents as Teachers 
children at age 3 are significantly more advanced in language, social 
development, and problem solving and other cognitive abilities than 
comparison children. The positive impact on Parents as Teachers 
children carries over into the elementary school years. Parents as 
Teachers children score higher on kindergarten readiness tests and on 
standardized measures of reading, math and language in first through 
fourth grades.
Parent Knowledge, Attitudes, and Behavior
    Parents as Teachers parents gain knowledge of child development, 
good parenting practices, and confidence in their parenting skills. 
They show increased understanding of how to promote optimal child 
development. Parents as Teachers parents are also more involved in 
their child's schooling and support their children's learning in the 
home. In a follow-up evaluation with families that participated in the 
Parents as Teachers pilot programs, a significantly higher proportion 
of Parents as Teachers parents initiated contacts with teachers and 
took an active role in their child's schooling. For example, 63% of 
Parents as Teachers parents compared with 37% of parents who had not 
participated in Parents as Teachers requested parent-teacher 
conferences. In a follow-up evaluation with families that participated 
in Parents as Teachers when it was first implemented statewide in 
Missouri, family members of almost 95% of Parents as Teachers children 
attended special events in their schools and classrooms and almost two-
thirds of the children had family members work as volunteers in their 
children's school. Teachers reported that 75% of Parents as Teachers 
parents always assisted with home activities related to schoolwork, and 
another 20% sometimes provided such assistance.
Parent-Child Interaction
    Parents as Teachers parents are more likely to read aloud, promote 
literacy and numeracy, and interact positively with their children.
    These outcomes can be attributed to the quality of the parent 
educator-parent relationship, level of parental engagement, flexibility 
to tailor information to meet family needs, strengths-based model, and 
the research-based curriculum and training.
    We are submitting for the record a brief summary of evaluations of 
the Parents as Teachers program (see Appendix A).
Parents as Teachers and Parental Involvement
    Parents as Teachers believes that changes in children's outcomes 
are fostered through changes in parents' knowledge, attitudes and 
behaviors. Supporting and educating parents to become involved in their 
child's development and learning results in lasting impacts on the 
children.
    We use the term parental involvement to refer to parents' 
participation in their child's learning and education. This involvement 
potentially begins at birth, or even prenatally, and is certainly well 
under way in the first three years of life. One value of fostering 
parental involvement starting from birth is that this sets parents' 
expectations about their continuing role in the child's education once 
he or she starts school. When parents are involved early, they stay 
involved, and this involvement improves children's performance in 
school.
    Parents as Teachers contributes to increased parental involvement 
on both a day-to-day basis and at a broader level. During the course of 
the personal visits, parent educator's foster and support parental 
involvement as they:
    <bullet> help parents learn to observe their child and read their 
child's cues.
    <bullet> help parents understand typical development, including 
brain development.
    <bullet> help parents know what developmental milestones to expect 
next and empower them to act when they have concerns about their 
child's development.
    <bullet> affirm parents' skills and strengths and encourage 
parental involvement.
    <bullet> emphasize the child's emerging literacy skills by bringing 
books to every visit from infancy on and showing parents how to read to 
their child.
    <bullet> show parents how to capitalize on opportunities to enhance 
their child's learning and development by using everyday resources and 
contexts.
    <bullet> help parents recognize teachable moments and how to use 
them with their child.
    More broadly, Parents as Teachers enhances parental involvement in 
that it:
    <bullet> helps parents be in a position to make better and more 
informed choices for their child's care
    <bullet> empowers families to advocate for their child
    <bullet> builds parental feelings of competence and confidence
    <bullet> enhances the parent-child relationship
    <bullet> increases the child's school readiness
    <bullet> helps parents learn to access services and supports for 
their child
    The Parents as Teachers National Center recognizes that in addition 
to parents, there are frequently many other adults that influence 
children's lives in the earliest years--relatives, care providers, 
early childhood teachers, and other caregivers. It is particularly 
important that those working with children at this critical time also 
recognize the importance of parental involvement.

How Parents Become Involved in Parents as Teachers and How They Remain 
                    Involved

    Parents are recruited for Parents as Teachers primarily through 
partnerships in the communities where the program is located; in many 
cases with the schools. Missouri is a case in point. There is a Parents 
as Teachers site in every school district in Missouri. This partnership 
with the schools in Missouri and other states creates a home-school 
connection many years before the children actually start school. In 
essence, Missouri schools are setting the expectation that the parental 
involvement that begins with the Parents as Teachers program will 
continue once the children start school. Studies show that school 
practices that encourage parents to participate in their children's 
education are more important than family characteristics like parental 
education, family size, marital status, socioeconomic level, or student 
grade level in determining whether parents get involved. Partnering 
with Parents as Teachers is one such practice.
    Parents remain involved because Parents as Teachers can be 
individualized to meet the differing needs of families, and is 
adaptable to communities and special populations, including teen 
parents, families of children with special needs, and families living 
on Indian reservations. An example of the program's adaptability is the 
current initiative to translate Parents as Teachers curriculum 
materials into Spanish to meet the needs of the many Spanish speaking 
families in Parents as Teachers. What we like to say is that while 
Parents as Teachers is a national model, it's a local program. The 
program's adaptability makes a difference for families.

Conclusion

    Since learning starts right from birth, it is important to begin 
working with parents at that time or just before it. Research 
demonstrates, and our experience with Parents as Teachers confirms that 
when parents are involved in their child's learning from early on, they 
stay involved, and that this on-going involvement improves children's 
performance in school. The Parents as Teachers National Center 
recommends that every parent in America have access to parent education 
and family support that highlights for them the critical importance of 
being involved in their child's learning as early as possible.
    The 8th National Education Goal of the Educate America Act 
recognizes the critical role of parents and the importance of parental 
involvement in children's education once they are in school. The 
Parents as Teachers National Center recommends that Congress also 
increase support for programs and policies that emphasize parents and 
parental involvement as key components of all early childhood 
initiatives. We also recommend that any comprehensive education reform 
must include a home visitation program such as Parents as Teachers for 
all children in those early years prior to kindergarten entry.

Appendix A: Parents as Teachers Evaluation Highlights

    Program evaluation has been integral in the evolution of the PAT 
program since its inception. The first evaluation of PAT was funded 
through a contract from the Missouri Department of Elementary and 
Secondary Education. Subsequent studies have been supported by the 
State of Missouri and other states, independent school districts, and 
private foundations. A few studies have been carried out by individual 
researchers, independent evaluations continue to confirm the positive 
impact of PAT on parents and children.
Parent and Family Outcomes
     PAT parents are more involved in their children's schooling--
parental involvement is key to a child's success in school.
     PAT parents are more confident in their parenting skills and 
knowledge.
     PAT parents read more to their children.
Child Outcomes
     PAT children at age 3 are significantly more advanced in language, 
problem solving and other cognitive abilities, and social development 
than comparison children.
     The positive impact on PAT children carries into elementary 
school.
     PAT children score higher on kindergarten, readiness tests and on 
standardized measures of reading, math and language in first through 
fourth grades.
Missouri PAT Pilot Project: Outcomes at Age Three and in Early 
        Elementary School
    75 project families were randomly selected from the 380 first-time 
parents who had participated in PAT for three years. The pilot project 
families and a matched comparison group represented Missouri's urban, 
rural and suburban communities. Posttest assessments of children's 
abilities and parents' knowledge and perceptions showed that PAT 
children at age three were significantly more advanced in language, 
problem-solving and other intellectual abilities, and social 
development than comparison children. PAT parents were more 
knowledgeable about child-rearing practices and child development. 
Participating parents were more likely to regard their school district 
as responsive to their children's needs than were parents of comparison 
group children, 63% of PAT parents rated their district as ``very 
responsive,'' versus 29% of comparison group parents.

(Pfannenstiel, J., and Seltzer, D., Evaluation Report; New Parents as 
Teachers Project Overland Park, KS: Research & Training Associates, 
1986 Pfannenstiel, J., and Seltzer, D., New Parents as Teachers; 
Evaluation of an Early Parent Education Program, Early Childhood 
Research Quarterly, 4, 1-18, 1989.)

    A follow-up evaluation of the pilot program was undertaken to 
determine if gains made during participation in PAT would have a 
lasting effect on the children and their parents. PAT children scored 
significantly higher on standardized measures of reading and math at 
the end of first grade than did comparison children. A significantly 
higher proportion of PAT parents initiated contacts with teachers and 
took an active role in their child's schooling. For example, 63% of 
parents of PAT children versus 37% of parents of comparison children 
requested parent-teacher conferences. Thus, PAT parents continue to 
play an active role in their child's education into elementary school.

(Pfannenstiel, J., New Parents as Teachers Project: A Follow-Up 
Investigation. Overland Park, KS: Research & Training Associates, 
1989.)

Statewide Implementation of PAT in Missouri: Outcomes at Age Three and 
        in Early Elementary School
    The ``Second Wave'' study examined how well the PAT model program 
would transfer statewide. This study determined the impact of PAT on 
400 randomly-selected families enrolled in 37 diverse school districts 
across Missouri. At age three, PAT children performed significantly 
above the national norms on a measure of school-related achievement, 
despite the fact that the Second Wave sample was over-represented on 
all traditional characteristics of risk. More than one-half of the 
children with observed developmental delays overcame them by age three. 
There were only two documented cases of abuse and neglect among the 400 
families over a three year period--significantly fewer than the state 
average. Parent knowledge of child development and parenting practices 
significantly increased for all types of families.

(Pfannenstiel, J., Lambson, T., and Yarnell, V., Second Wave Study of 
the Parents as Teachers Program, Overland Park, KS: Research & Training 
Associates, 1991.)

    A follow-up of the Second Wave study assessed the longer-term 
impacts of program participation. This study focused on the first- and 
second-grade school experiences and performance of the Second Wave PAT 
children, and PAT parents, involvement in their children's learning and 
schooling. PAT children were rated by their teachers as performing at 
high levels of proficiency in all areas assessed. When compared to 
their grade-level peers, 91% of PAT children were rated by their 
teachers as equal to or better than average. Overall, the relative 
level of achievement children demonstrated at age three on completion 
of the PAT program was maintained at the end of the first/second grade. 
PAT parents demonstrated high levels of school involvement, which they 
frequently initiated, and supported their children's learning in the 
home.

(Pfannenstiel, J., Lambson, T., and Yarnell, V., The Parents as 
Teachers Program: Longitudinal follow-up to the second wave study. 
Overland Park, KS; Research & Training Associates, 1996.)

Evaluations of PAT Child Outcomes: Kindergarten Readiness and Beyond
    The Missouri School Entry Assessment Project is a comprehensive 
early childhood assessment effort designed to gather information about 
what young children who enter Missouri's public kindergartens know and 
can do and to relate this information to their pre-kindergarten school 
experiences. Findings from the 1998 school readiness assessment project 
involving 3,500 kindergarteners in Missouri show that Parents as 
Teachers achieves its goal of preparing children for success in school. 
Among children whose care and education were solely home-based, those 
whose families participated in PAT scored significantly higher on the 
School Entry Profile. However, the highest performing children were 
those who participated in PAT combined with preschool, center-based 
child care, or both. Children from high-poverty schools scored above 
average an all areas of development when they entered kindergarten with 
a combination of PAT and any other pre-kindergarten experience (pre-
school, center-based care, and/or home-based care).

(Barr, S. and Pfannenstiel, J., Missouri School Entry Assessment 
Project Summary. Presentation made at the 8th International Born to 
Learn Conference, St. Louis, MO, June, 1999.)

    Parkway School District, a large metropolitan school district in 
St. Louis County, Missouri, demonstrated the long-term positive impact 
of PAT on school achievement. Third graders who had received PAT 
services with screening services from birth to age three scored 
significantly higher on standardized measures of achievement than their 
non-participating counterparts. PAT children had a national percentile 
rank of 81, while non-participating students had a rank of 63 on the 
Stanford Achievement Test. PAT graduates were less likely to receive 
remedial reading assistance or to be held back a grade in school. In 
fourth grade, PAT graduates still scored significantly higher overall 
and on all Stanford Achievement subjects (reading, math, language, 
science, social studies) than did non-PAT fourth-graders.

(Coates, D., Early childhood evaluation, Missouri: A Report to the 
Parkway Board of Education, 1994; Coates, D. Memo on one-year update on 
Stanford scores of students--early childhood evaluation study group; 
Parents as Teachers program leads to elementary school success, Parkway 
School District News, Spring, 1997.)

    A series of studies of PAT program participation and school 
readiness were conducted in the Binghamton, New York, School District, 
beginning in 1992. A pilot study focused on a sample of poor, high-
needs children. Pre-kindergarten assessments showed that compared to 
matched comparisons, PAT children had better language skills and were 
twice as likely to be reading-ready by kindergarten.

(Drazen, S. and Haust, M., Raising reading readiness in low-income 
children by parent education, Paper presented at the annual meeting of 
the American Psychological Association, August, 1993.)

    A second study compared the school readiness of children who 
participated in PAT with all kindergartners in the Binghamton School 
District, PAT children showed better school readiness at the start of 
kindergarten, higher reading and math readiness at the end of 
kindergarten, higher kindergarten grades, and fewer remedial education 
placements in first grade.

(Drazen, S. and Haust, M., The effects of the Parents and Children 
Together (PACT) Program on school achievement. Binghamton, NY: 
Community Resource Center, 1995.)

    A longitudinal follow-up of these same Binghamton children found 
that PAT children continued to perform better than non-PAT children on 
standardized tests of reading and math achievement in second grade. 
Compared to non-PAT children, PAT children required half the rate of 
remedial and special education placements in third grade.

(Drazen, S. and Haust, M., Lasting academic gains from an early home 
visitation program. Paper presented at the annual meeting of the 
American Psychological Association, August, 1996.)

    In this North Carolina study, children who participated in PAT were 
tracked into kindergarten. A study of the long-term educational impact 
of the Rutherford County Schools PAT program compared families who 
participated in PAT for three years to families who either received no 
services or who received a quarterly newsletter during the first year 
of their chi1d's life. Upon entry to kindergarten, PAT children scored 
significantly higher than children from the comparison groups on 
measures of language and self-help/social skills.

(Coleman, M., Rowland, B. & Hutchins, B., Parents as Teachers: Policy 
implications for early school intervention, Paper presented at the 1997 
annual meeting of the National Council on Family Relations, Crystal 
City, VA, November, 1987; Parents as Teachers: Kindergarten screening 
final report. Rutherford County, VA: Rutherford County Schools, May 
1998.)
Immediate Child and Parent Outcomes
    In a series of studies, SRI International examined the impact of 
PAT with high needs families in California. The pilot evaluation looked 
at the effects of PAT on predominantly Hispanic families in Salinas, 
California, 67 of whom were randomly assigned to PAT and 46 to a 
control group, Assessments of parent and child outcomes at or near the 
children's first birthdays showed a consistent pattern of positive 
outcomes for parents and children. PAT parents had more knowledge of 
infant development and consistently scored higher on measures of 
parenting behavior and attitudes. Although not statistically 
significant, PAT children scored consistently higher on developmental 
measures showing physical, self-help, social and academic/cognitive 
skills.

(Wagner, M. and McElroy, M., Home, the first classroom: a pilot 
evaluation of the northern California Parents as Teachers project. 
Menlo Park, CA, SRI International, 1992.)

    A second SRI study focused on the parents and three-year old 
children of PAT ``graduates'' in National City, California. These 
families were predominantly Hispanic, unemployed, with low education 
levels. PAT children scored higher than comparison children on 
developmental measures of physical, self-help, social, cognitive, and 
communication skills. PAT parents showed significant increases in 
parenting knowledge, attitudes, and behaviors. PAT participation was 
the only factor significantly related to child development outcomes.

(Wagner, M. Evaluation of the National City Parent As Teachers Program, 
Menlo Park, CA; SRI International, 1993.)

Evaluations of the Effectiveness of the Born to Learn<greek-T><greek-M> 
        Curriculum
    Parents as Teachers' new Born to Learn<greek-T><greek-M> Curriculum 
was field-tested with families in St. Louis and Chicago for whom 
parenting is a special challenge. The project demonstrated that 
neuroscience information could be successfully incorporated into the 
Parents as Teachers educational intervention program, and could produce 
meaningful changes in the knowledge, attitudes, and behaviors of 
parents for whom parenting typically is a greater challenge.

(McGilly, K., Winter, M., & Strube, M. (2000), Linking neuroscience and 
education to improve parenting of young children. St. Louis, MO: 
Parents as Teachers National Center, Inc., McGilly, K. (2000) Chicago 
Born to Learn<greek-T><greek-M> Neuroscience Project: Final report to 
Robert R. McCormick Tribune Foundation. St. Louis, MO; Parents as 
Teachers National Center, Inc.)

    A multi-site evaluation by SRI International was recently conducted 
with 667 low-income families in three metropolitan areas. Families with 
infants up to 8 months of age were randomly assigned to either a 
treatment group receiving PAT services or a no-treatment control group. 
Outcomes from the first two years of this evaluation were reported in 
summer 2001. The results indicated that participation in PAT is as 
effective for the lowest-income families as for those with more 
moderate incomes. Of particular note were the positive effects on 
parenting behavior and the impacts on language- and literacy-promoting 
behaviors for families with very low income. In families with very low 
income, those who participated in PAT were more likely to read aloud to 
their child and to tell stories, say nursery rhymes, and sing with 
their child.

(Wagner M. and Spiker, D., Multisite Parents as Teachers Evaluation: 
Experiences and Outcomes for Children and Families, 2001.)

    Senator Bond. Thank you very much, Sharon.
    Unfortunately, we are going to have very little time for 
question and answers--I am going to have to leave in just a few 
minutes--but there will be a session beginning at 3:30, I 
understand, a roundtable discussion, that I hope as many of you 
as possible can attend.
    On behalf of the Parents as Teachers organization, I would 
like to extend an invitation to any of you to visit us in 
Missouri. In the last 6 or 7 years, I have visited 90 Parents 
as Teachers sites, and talked to the parents and seen what is 
going on, and as I said earlier in my comments from the dais, I 
have learned a great deal, and we appreciate very much the good 
work that is going on in all of these areas.
    I mentioned to Rob Reiner that it is unfortunate that we 
agree on everything, because this place thrives on controversy, 
and one of the worst things you can do is having something that 
everybody agrees on. If there is not a fight, it does not get 
covered, and I do not see anybody picking any fights today, but 
I certainly hope that the caliber of the testimony and the 
information that you have provided will stir all of us to some 
effective action.
    I just wanted to bring out a couple of things from Sharon 
Rhodes' testimony. In your written testimony, you refer to 
Parents as Teachers as the ``universal access model.'' Would 
you explain to us what you mean by ``universal access'' and 
what the implications of this approach are?
    Ms. Rhodes. One of the things that Parents as Teachers is 
predicated on is that all families deserve and can benefit from 
support. I think that Senator Bond, who was a part of the 
program, and our current Governor Holden can both attest to 
that, that families today oftentimes do not live in the 
communities in which they grew up, so when they look at what is 
going on in their home and with their parenting skills, we 
really believe that when a baby cries in the middle of the 
night, no matter what socioeconomic determinations that family 
may have, that they can all benefit from support.
    When we talk about universal access, we also want to note 
that it is offered to all families especially in the State of 
Missouri, and today we are serving about 47 percent of the age-
eligible population in that State. However, as I said, we have 
a number of programs outside the State of Missouri. Many of 
those programs due to funding restrictions, are targeted 
programs, so we are finding that we are a program that works, 
when we say universal access, with all families, no matter 
where they live--rural, urban--and no matter what their family 
demographics and situation might be.
    But I also want to point out that when we say ``universal 
access,'' it does not really necessarily apply that one size 
fits all. We have developed curricula and we have developed 
training that supports working with families of all 
configurations. We have specific training and materials for 
working with teen parents; we work with the Bureau of Indian 
Affairs on 30 or so sites around the country; we work with 
parents of children with special needs. So we are universal 
access in the respect that we are open to all families. We have 
developed materials that would support that development.
    Senator Bond. One of the challenges, obviously, is that 
this is offered to every school district in Missouri, and every 
parent is eligible, yet only 47 percent apply. Some of that is 
due to a lack of funds, and some of it is failure to 
communicate. Do you see any particular population that is not 
getting in there? A lot of people think that the very 
successful two-wage-earner professional family may not need the 
services of Parents as Teachers. Do you serve them as well as 
those in the lowest socioeconomic category?
    Ms. Rhodes. I think that is probably one of the best 
features about Parents as Teachers is the fact that it helps to 
reduce the stigma of a particular program. In other words, if 
we see that the doctor down the street is engaged in this 
program, we also want to be engaged in the program.
    Typically, the funding restriction is what is causing us to 
serve only 47 percent of the age-eligible population. Many of 
our school districts do have waiting lists and are trying to 
get involved in the home visits. When the parents are anxious 
to become part of the Parents as Teachers program, we do extend 
group meetings for them and written materials; it is just the 
lack of people that we have who are trained to go into the 
homes. We have heard much about the importance of training here 
this morning.
    One of the areas, though, that we are really struggling 
with is the inner city. Certainly in the urban communities, we 
are through the school systems, but oftentimes we feel that we 
really need to be working in concert with the local WIC clinics 
where we are finding parents who are particularly in need of 
services that may not be working with the school systems. 
Oftentimes, our parents have a preconceived notion of schools 
as not being a place where they can feel welcome. So we reach 
out into the community and go to the local clinics and to the 
health care professionals in the community to help recruit 
those families. But those families are oftentimes the families 
that are the most challenging to recruit.
    Senator Bond. Rob, do you have any idea what percentage of 
children in California you have been able to reach so far with 
your Proposition 10 efforts?
    Mr. Reiner. We do not know exactly. We have a number of 
different kinds of programs. The Kit for New Parents that I 
alluded to reaches all 500,000 children who are born in 
California. It is free to the parent or caregiver of every 
child born in California. So that is a program that reaches all 
the children.
    The school readiness initiative that I also alluded to is 
targeted at the lowest-performing schools. Because we have 
limited funds, we cannot really provide school readiness 
centers for every child. So there are different programs that 
reach different numbers of children.
    Senator Bond. Ms. Schaefer, the funding has really gone up 
for Community Partnership programs, now to almost $100 million. 
What portion of the eligible population are you able to reach?
    Ms. Schaefer. It is 22,000 out of about 70,000, so it is 
not a lot, but we see ourselves are part of the overall system, 
the eligible system--Head Start, what services they provide; 
what child care centers provide; what public schools provide. 
So if you look at that percentage, it is probably more like 70 
percent of the preschool population is getting services.
    Senator Bond. Ms. Russell, with all of the work that you 
have done through Child Care Services and getting more people 
into it, which is a problem that Ms. Rhodes described, what is 
your success rate or your service rate in North Carolina? What 
percentage of your target population are you able to service?
    Ms. Russell. We are targeting the early childhood work 
force, so in any given year, we have at least one teacher in 
almost 40 percent of the centers on scholarship to go back to 
school. So it is a fairly good rate given the work force.
    Senator Bond. I mean, going downstream to the actual 
services, do you know----
    Ms. Russell. In terms of reaching children?
    Senator Bond. We recognize that the lack of teachers is one 
of the limiting factors, so where are you in terms of the 
percentage of service?
    Ms. Russell. In terms of where we are with reaching 
children, in our Smart Start and T.E.A.C.H. and comprehensive 
initiatives in early childhood in North Carolina, I would say 
that in any given year we are reaching in various ways, as Rob 
said in California, in various ways. Most of the children in 
our State who are under 5, some get multiple services, they are 
in early childhood programs, they get home visiting, they get 
all sorts of developmental screenings, and other children get 
limited services depending on our ability to fund those.
    We are a long way from having the resources to intensively 
reach all children, and that is the issue, that we can do a 
little bit, but we cannot do enough.
    Senator Bond. Well, I think that is the problem, number 
one, designing good programs, making sure we have the teachers 
and the parent educators there, and bringing the children into 
the program. That is one area--Rob, with your skills--where we 
need help.
    I have found in talking with a lot of parent educators 
around the State that the very best sales force we have for 
early childhood education is the parents of those who are in 
the program. If the program is working, we ask them to please 
reach out to your friends, your coworkers, your neighbors, and 
tell them that the program is good, because as we said earlier, 
many people in some instances, in some groups, do not trust the 
school system, and they want to hear from somebody who is 
benefiting from the program.
    That is just one of the many challenges that we face. I 
very much appreciate your participation today. We hope that you 
can participate in the 3:30 workshop.
    The record will be open for 7 days to supplement, and I 
know that we have a number of questions that I was not able to 
get through, so we will submit questions in writing and would 
ask that you respond to those. And for those who are interested 
in this whole important area, if you have any really brilliant 
thoughts that have not been expressed today, I hope that you 
will submit them for the record to the committee, because this 
is a vitally important area, and this record should be a most 
important one.
    Mr. Reiner. I just want to add one thing in terms of the 
services and the percentage of children receiving services. To 
my knowledge, there is nobody in the K through 12 system who 
does not get education. We all agree on that. There is a 
fraction of the children ages zero to 5 who get early childhood 
services, but 100 percent of all children get K through 12 
offered to them. So that is the context in which you have to 
think of this, that we need the children from zero to 5 to be 
getting the same kind of full access to services that children 
K through 12 get.
    Senator Bond. Thank you very much for those comments.
    Ladies and gentlemen, thank you for your participation.
    The hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                   Child Care Services Association,
                                           Chapel Hill, NC,
                                                 February 12, 2002.
Hon. Christopher J. Dodd,
U.S. Senate,
Washington, D.C. 20515.
    Dear Senator Bond: I am responding further to your question about 
who our efforts were reaching and whether we were reaching parents and 
children sufficiently to make a difference.
    Because my testimony focused on the early childhood workforce and 
efforts to improve the education, compensation and retention of that 
workforce as a strategy to improve quality for children, I did not 
fully understand nor adequately answer your question of me at the time 
of the hearing.
    The answer to your question is that we are not reaching a 
sufficient number of children in North Carolina with high quality early 
childhood education experiences. This is demonstrated by the fact that 
we have over 20,000 children of low income parents on waiting lists for 
child care assistance. Research tells us that while these parents wait 
for help, their children are often shuttled between various make-shift 
child care arrangements, most of which are not of high quality.
    We also know that the quality of licensed child care is not 
adequate in our state to make the difference for these children. In 
fact, in some of our counties not a single teacher working in child 
care has a two or four year degree in any subject, let alone early 
childhood education or child development. Overall, less than one-
quarter of the workforce has a two or four year degree. Turnover rates, 
while dropping, are still 31% per year. This means that almost one-
third of the infants, toddlers and preschoolers face the loss of their 
teachers each year. For infants and toddlers, this is particularly 
alarming, as it is critical that they build trusting relationships with 
adults to support their positive brain development. We have a long way 
to go to boost the system of early childhood care and education to a 
level that ensures uniform access and uniform high quality. Thank you.
                                               Sue Russell,
                                                Executive Director.

    [Whereupon, at 12:54 p.m., the committee was adjourned.]

                                    

      

</pre></body></html>
